<html>
<title> - WOMEN AND THE LAW</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





 
                           WOMEN AND THE LAW

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 -----


                     U.S. GOVERNMENT PRINTING OFFICE

40-784 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001








              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS




House                             Senate 

SANDER LEVIN, Michigan, Chairman  BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                MAX BAUCUS, Montana
MICHAEL M. HONDA, California      CARL LEVIN, Michigan
TOM UDALL, New Mexico             DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota        SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois      SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania     CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California       GORDON H. SMITH, Oregon
CHRISTOPHER H. SMITH, New Jersey  MEL MARTINEZ, Florida



                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director

               Murray Scot Tanner, Deputy Staff Director

                                  (ii)


















                            C O N T E N T S


                              ----------                              
                                                                   Page
    Status of Women..............................................     1
    Population Planning..........................................     6
    Health.......................................................     9
    Human Trafficking............................................    16
    North Korean Refugees in China...............................    20
    Freedom of Residence and Travel..............................    23
    Endnotes.....................................................    27

























                            Status of Women


                              introduction


    The Commission has noted in the past that the Chinese 
government has been more vigorous in publicizing and condemning 
abuse against women than in other areas concerning human 
rights.\1\ In 2003, 2004, and 2006, the Commission observed 
that, while China had built an expansive legal framework to 
protect women's rights and interests, loopholes and inadequate 
implementation remained that left women vulnerable to 
widespread abuse, discrimination, and harassment at home and in 
the workplace.\2\ The Commission noted in 2004-2006 that 
China's economic reforms have increased opportunities for women 
to build their own businesses, but these reforms still leave 
many women, when compared to men, with fewer employment 
opportunities, less earning power, less access to education, 
especially in rural areas, and increasing risks from HIV/
AIDS.\3\ In its 2004-2006 Annual Reports, the Commission also 
noted the existence of women's organizations that advocate on 
behalf of women's rights within the confines of government and 
Communist Party policy.\4\ In its 2005 Annual Report, the 
Commission observed that China's Constitution and laws provide 
for the equal rights of women, but, as noted in 2006, vague 
language and inadequate implementation continue to hinder the 
effectiveness of legal protections written in the Constitution 
and national laws.\5\


                         laws and institutions


    The Chinese Constitution and laws provide for the equal 
rights of women.\6\ In addition, the Program for the 
Development of Chinese Women seeks to increase women's 
development by 2010 in areas of the economy, decisionmaking and 
management, education, health, law, and the environment.\7\ 
CECC Annual Reports dating from 2003 have noted that the number 
of laws and regulations promoting the equal rights of women has 
expanded, with a noticeable difference after 2004.
    In August 2005, the National People's Congress (NPC) 
Standing Committee passed an amendment to the Law on the 
Protection of Women's Rights and Interests (LPWRI), which 
prohibit sexual harassment and domestic violence, and require 
government entities at all levels to give women assistance to 
assert their rights in court.\8\ At least nine provincial and 
municipal governments have passed regulations to strengthen the 
implementation of the LPWRI.\9\ For example, Shanghai's 
regulations, passed in April 2007, explicitly prohibit five 
types of sexual harassment, namely verbal, written, pictorial, 
electronic transmission of information such as text messaging, 
and physical sexual harassment.\10\ The 2002-2004 Annual 
Reports noted that although there was initially no specific law 
on sexual harassment, people began to file sexual harassment 
cases in court and several women won lawsuits against their 
employers, in part due to greater economic openness and 
government and women's organizations' efforts to build 
awareness.\11\ In addition, at least 15 provincial and 
municipal governments have detailed domestic violence 
regulations, and the Ministry of Public Security and the All-
China Women's Federation (ACWF), among others, issued 
guidelines in 2007 that will legally obligate police officers 
to respond immediately to domestic violence calls and to assist 
domestic violence victims, or face punishment.\12\
    Previous annual reports have noted that the lack of a 
national definition on key terms, such as discrimination 
against women and sexual harassment, hinder effective 
implementation of the amended LPWRI and other policy 
instruments.\13\ In addition, even though the amended Marriage 
Law of 2001 and the amended LPWRI prohibit domestic violence, 
``domestic violence'' is not defined, and case rulings in 
domestic violence cases are inconsistent due to the lack of 
clear standards in laws and judicial explanations.\14\ Other 
hurdles in accessing justice include domestic violence victims 
bearing the burden in bringing complaints, lack of detailed 
provisions on how to implement policy measures, and limited 
public understanding and awareness, among other factors.\15\ 
Recent surveys show that domestic violence and sexual 
harassment remain widespread. For example, 30 percent of 
Chinese families experience 
domestic violence, and 74.8 percent of female migrant workers 
engaged in the service industry in Changsha city report 
experiencing some form of verbal or physical sexual 
harassment.\16\


                           gender disparities


                                Economy

    China's transition to a market economy has had 
contradictory 
influences on the social status of women, who contribute to 
over 40 percent of China's gross domestic product, offering 
them both ``greater freedom and mobility,'' and ``greater 
threats . . . at home and in the workplace.'' \17\ The 
Commission's 2003 Annual Report notes that women workers face 
particular hardships in finding a job, as they are often the 
first to be fired and the last to be hired, and there exists 
weak labor protection measures, inadequate maternity insurance, 
unequal compensation and benefits when compared to men for 
equal work, and fewer opportunities for advancement, among 
other factors.\18\ There are also concerns that women's 
participation in the economy is unevenly distributed between 
rural and urban areas, and that the market transition has 
increased fees in rural areas, impoverishing some families and 
harming girls' access to education.\19\ Young women are 
increasingly migrating to urban areas to find work, leaving 
them vulnerable to trafficking, forced labor, and other 
abuses.\20\
    At the same time, some women are succeeding as 
entrepreneurs in China, in certain measures even in comparison 
to men.\21\ For 
example, most of these women entrepreneurs work in small and 
medium-sized companies, accounting for 20 percent of the total 
number of entrepreneurs in China. Among them, 60 percent have 
become successful in the past decade and 95 percent of the 
companies that they run have been very successful. These 
companies have created more job opportunities for women as 
well, since 60 percent of the staff tends to be women.\22\ [See 
Section II--Worker Rights.]

                     Decisionmaking and Management

    Women account for 40 percent of government positions, yet 
this number may be misleading as very few hold positions with 
decisionmaking power. For example, the Ministry of Civil 
Affairs estimates that less than 1 percent of village 
committees and village-level Communist Party Committees in 
China's 653,000 administrative villages were headed by women in 
2004. In March 2007, the NPC announced that female 
representatives should account for at least 22 percent of the 
seats in the 11th NPC, with representatives to be elected by 
the end of January 2008, and at least 30 
percent of civil servant posts must be held by women.\23\ 
Various provincial and municipal governments have also 
announced gender quotas for positions in their local 
governments and local people's congresses.\24\

                          HIV/AIDS and Health

    Chinese health statistics over the past five years continue 
to reflect women's disadvantaged status, and also reflect 
central and local governments' slow pace in effectively 
addressing health issues that are known to disparately impact 
women, especially women in rural areas. The Commission's 2005 
Annual Report noted that women make up an increasingly larger 
percentage of newly reported HIV/AIDS cases, an observation 
confirmed by official Chinese government news media.\25\ This 
trend has continued in the 2006-2007 reporting period,\26\ 
although the government has taken some steps to increase HIV/
AIDS awareness among women used in prostitution.\27\ Although 
the Commission's 2003 Annual Report observed that China had not 
taken the necessary initiatives to increase awareness among 
this group, these recent steps suggest a possible positive 
development if they are implemented effectively.\28\
    China is the only country in the world where the rate of 
suicide is higher among women than among men.\29\ According to 
the editor of China Women's News, 157,000 women commit suicide 
each year in China, 25 percent more than men. In rural areas, 
the instance of suicide among women is three to four times 
higher than the instance among men, and three to five times 
higher than the instance among women who live in urban areas. 
Domestic violence is the main cause of suicide among women in 
rural areas.\30\ While there has been a decline in maternal 
mortality rates since 1991, there is a widening gap between 
urban and rural areas, with women in rural areas experiencing 
significantly higher mortality rates when compared with 
maternal mortality rates in urban areas and the national 
average.\31\ Moreover, rural women's rates of illnesses are 5 
percent higher when compared with rural men's rates of 
illnesses, most likely as a result of long working hours, poor 
nutrition and care after childbirth, and the collapse of the 
rural cooperative medical system.\32\ [See Section II--Health.]

             Access to Education, Especially in Rural Areas

    Women continue to have less access to education in rural 
areas and lower educational levels when compared to men, 
although women's organizations and the government have 
initiated programs in recent years to reverse this trend by 
providing economic incentives to send girls to school or 
seeking to change traditional rural attitudes that give 
preference to the education of sons. Despite 99 percent 
enrollment rates for girls and boys, only 43 percent of girls 
in rural areas, as compared with 61 percent of boys, complete 
education higher than junior middle school.\33\ Furthermore, 
the National Bureau of Statistics released statistical data in 
2006 showing that more than 70 percent of those who are 
illiterate and 15 years of age and older are women, a figure 
that has increased since 2001.\34\ In an attempt to address 
these issues in part, government and government-affiliated 
organizations have organized local-level ``Spring Bud'' 
programs that aim to help girls stay in school around the 
country.\35\

    Rural Land Reallocation and the Rights of ``Married-Out Women''

    ``Married-out women'' in rural areas continue to experience 
violation of their land and property rights, although judges 
have recently ruled in favor of women in certain types of 
lawsuits, and some provinces are issuing regulations that seek 
to strengthen implementation of existing legal protections. 
Village committees, when determining who should be eligible to 
receive shares of collectively owned land assets, may order 
decisions that legitimize discrimination against ``married-out 
women.'' ``Married-out women'' include women who have either 
married men from other villages, but whose household 
registration (hukou) remains in their birthplace, whose hukou 
is transferred from one place back to their birthplace, or 
whose hukou is transferred to their husbands' village.
    These women are especially vulnerable to violation of their 
rights, including rights to use land, to receive compensation 
for the land, to use the land for residential purposes, and to 
have access to collective welfare resources.\36\ Legal 
protections in the form of the PRC Law on Land Contract in 
Rural Areas, the Marriage Law, and other laws, guarantee women 
the same land rights as men. Judges have ruled in favor of 
women in four lawsuits concerning land rights since August 
2005, and there have been reports of other successful cases 
within the last two years.\37\ Most of these women who have won 
lawsuits, however, have been those who still live in their 
villages after marrying men from other villages.\38\
    There are still tremendous difficulties for ``married-out 
women'' to use legal channels to seek redress for violations of 
their rights. For example, lawyers have noted that the LPWRI 
and relevant regulations in Guangdong province guarantee the 
property rights of women, but they lack detailed articles that 
could be used to protect these rights.\39\ In addition, each 
village also has its own set of laws, which according to the 
PRC Organic Law of Village Committees (Organic Law) should not 
contravene national laws and regulations.\40\ Yet the Organic 
Law does not indicate how to prevent or resolve this 
disconnect, with the consequence that some villages uphold 
their own laws even when they are in conflict with the LPWRI 
and other laws.\41\ In May 2007, Guangdong province passed 
regulations to strengthen its implementation of the LPWRI, with 
the rule that neither organizations, such as the village 
committee, nor individuals can prevent or force rural women to 
change their hukou as a result of marriage, divorce, or 
widowhood.\42\ In addition, the regulations state that village 
rules, laws, and resolutions concerning land rights must not 
violate women's rights on the basis of marriage, divorce, or 
widowhood.\43\


                         women's organizations


    Women's organizations have been particularly active in the 
last few years, although these groups advocate on behalf of 
women's rights within the confines of government and Communist 
Party policy. The All-China Women's Federation (ACWF), a 
Communist Party-led mass organization, plays a supporting role 
in the formation of some of these organizations while others 
operate more independently and sometimes with unregistered 
status.\44\ There were 2,000 active organizations by 1989, and 
the Fourth World Conference on Women in 1995 helped to launch 
other women's organizations, such as the Center for Women's Law 
Studies and Legal Services of Peking University and the Maple 
Women's Psychological Counseling Center. In addition, several 
women leaders jointly founded the advocacy project Women's 
Watch--China in April 2005.
    Within the last year, the China Women's University 
established a legal center for women and children, and there 
have been various seminars and workshops sponsored by 
universities, lawyers' associations, and local women's 
federations to raise awareness of women's issues among lawyers, 
judges, public officials, and academics.\45\ The ACWF works 
with the Chinese government to support women's rights, 
implement programs for disadvantaged women, and provide a 
limited measure of legal counseling and training for women.\46\ 
As a Party organization, however, the ACWF does not promote 
women's interests when such interests conflict with Party 
policies that limit women's rights. For example, in 2005, an 
ACWF representative in Yunnan province refused to allow a 
leading women's rights activist to represent over 500 women in 
Yunnan in seeking redress for lost land, on the grounds that 
such interference could ``influence stability.'' \47\ In 
addition, the ACWF has been silent about the abuses of Chinese 
government population planning policies and remains complicit 
in the coercive enforcement of birth limits.\48\


           non-discrimination in employment and the workplace


    Women account for 60 percent of total rural laborers, and 
by the end of 2004, there were 337 million women working in 
cities and rural areas, which accounted for 44.8 percent of the 
total workforce, roughly women's proportion of China's general 
population.\49\ Women still face tremendous challenges in the 
workplace, and women migrant workers face particular hardship. 
For example, more than 70 percent of women in a 2007 survey 
reported worrying about losing their jobs after becoming 
pregnant, and there have been numerous cases of women dismissed 
after they became pregnant.\50\ In addition, a 2006 survey of 
women migrant workers 
conducted by the ACWF found that only 6.7 percent of surveyed 
workers had maternity insurance. Of the 36.4 percent who 
reported that they were allowed to take maternity leave, 64.5 
percent said this leave was unpaid.\51\ Some local governments 
have established programs to provide loans, training, and legal 
aid for woman workers.\52\ For example, the legal aid center in 
Jinan city provides legal services for migrant women 
workers.\53\ The ACWF also has programs such as the Two Million 
Project, launched in 2003, which aims to train 2 million laid-
off women so that they can find reemployment.\54\ [See Section 
II--Worker Rights.]


                 continuing challenges in the workplace


    The Chinese government has passed a substantial body of 
protective legislation, particularly in the area of labor laws 
and regulations. For example, the 1978 Temporary Measures on 
Providing for Old, Weak, Sick, and Handicapped Cadres 
(Temporary Measures) require women to retire at 55, and men at 
60.\55\ Chinese academics and government officials have noted 
that the Temporary Measures discriminate against women.\56\ In 
addition, requirements for employment based on height, weight, 
gender, age, and beauty are not uncommon. In 2006, a 
transportation company based in Hubei province issued rules 
stipulating that female attendants must stay within certain 
height and weight requirements, and that attendants whose 
weight exceeded 60 kilograms (132 pounds) would be laid 
off.\57\ Despite some legal protections, both urban and rural 
women in China continue to have limited earning power when 
compared to men, and women lag behind men in finding employment 
in higher-wage urban areas.\58\

                          Population Planning


                              INTRODUCTION

    During the past five years, the Chinese government has 
maintained population planning policies that violate 
international human rights standards. As this Commission noted 
in 2006, ``The Chinese government strictly controls the 
reproductive lives of Chinese women. Since the early 1980s, the 
government's population planning policy has limited most women 
in urban areas to bearing one child, while permitting many 
women in rural China to bear a second child if their first 
child is female. Officials have coerced compliance with the 
policy through a system marked by pervasive propaganda, 
mandatory monitoring of women's reproductive cycles, mandatory 
contraception, mandatory birth permits, coercive fines for 
failure to comply, and, in some cases, forced sterilization and 
abortion. The Chinese government's population planning laws and 
regulations contravene international human rights standards by 
limiting the number of children that women may bear, by 
coercing compliance with population targets through heavy 
fines, and by discriminating against `out-of-plan' children.'' 
\1\
    As this Commission reported in 2005 and 2006, China's 
population planning policies in both their nature and 
implementation constitute human rights violations according to 
international standards. During 2007, human rights abuses 
related to China's population planning policies clearly were 
not limited to physically coerced abortions. Local officials 
have violated Chinese law by punishing citizens, such as 
imprisoned legal advocate Chen Guangcheng, who have drawn 
attention to population planning abuses by government 
officials. Moreover, as described below, population planning 
policies have exacerbated imbalanced sex ratios--a male to 
female ratio of 118:100, according to the U.S. Department of 
State, but reportedly higher in some localities and for second 
births.

                    OVERVIEW OF RECENT DEVELOPMENTS

    China's population planning policies exert government 
control over women's reproductive lives, impose punitive 
measures against citizens not in compliance with the population 
planning policies, and engender additional abuses by officials 
who implement the policies at local levels. The government 
states that population planning policies have prevented more 
than 300 million births since implementation, and it justifies 
continuing the policies to maintain controls over population 
growth.\2\ In 2002, when the Chinese government codified its 
population planning policies into national law, an official 
stated that China ``does not yet possess the conditions for a 
relaxation of [the] birth policy, but there is also no need to 
tighten it.'' \3\ A decision issued by the Communist Party 
Central Committee and State Council in December 2006 promoted 
the continuation of basic national policies on population 
planning.\4\ In July 2007, the head of the Population and 
Family Planning Commission reiterated that the policies would 
remain in place.\5\
    China's population planning policies deny Chinese women 
control over their reproductive lives. The Population and 
Family Planning Law and related local regulations permit women 
to bear one child, with limited exceptions.\6\ Women who bear 
``out-of-plan'' children face, along with their family members, 
harsh economic penalties in the form of ``social compensation 
fees'' that can range to multiples of a locality's yearly 
average income.\7\ Authorities also subject citizens who 
violate population planning rules to demotions or loss of jobs 
and other punitive measures.\8\ Authorities have used legal 
action and coercive measures to collect money from poor 
citizens who cannot afford to pay the fees.\9\ The fees 
entrench the disparity between rich and poor, as wealthier 
citizens have come to view paying the fees as a way to buy out 
of population planning restrictions.\10\ Public officials also 
have been able to flaunt restrictions. Official Chinese media 
reported in 2007 that the Hunan province family planning 
commission found that from 2000 to 2005, nearly 2,000 officials 
in the province had violated the Population and Family Planning 
Law.\11\ In September 2007, the government and Party announced 
new measures to monitor public officials' 
adherence to population planning policies and deny promotions 
to officials who violate them.\12\ In recent years, the 
government has introduced more programs to reward citizens' 
compliance with family planning policies, but it has retained 
punitive measures.\13\ In May 2007, the national Population and 
Family Planning Commission adopted a plan to ``rectify'' out-
of-plan births in urban parts of China.\14\ Controls imposed on 
Chinese women and their families, and additional abuses 
engendered by the system, from forced abortion to 
discriminatory policies against ``out-of-plan'' children, 
violate standards in the Convention on the Elimination of All 
Forms of Discrimination Against Women,\15\ Convention on the 
Rights of the Child,\16\ and the International Covenant on 
Economic, Social, and Cultural Rights,\17\ the terms of which 
China is bound to uphold as a state party to these treaties.
    Abuses in the enforcement of population planning policies 
have further eroded citizens' rights. Although the Population 
and Family Planning Law provides for punishment of officials 
who violate citizens' rights in promoting compliance,\18\ 
reports from recent years indicate that abuses continue. Media 
reports in 2005 publicized abuses in Linyi, Shandong province, 
where officials enforced compliance through forced 
sterilizations, forced abortions, beatings, and other 
abuses.\19\ Citizens who challenge government offenses continue 
to face harsh repercussions. After legal advocate Chen 
Guangcheng exposed abuses in Linyi, authorities launched a 
campaign of harassment against him that culminated in a four-
year, three-month prison sentence imposed in 2006 and affirmed 
by a higher court in 2007.\20\ [See also Section II--Rights of 
Criminal Suspects and Defendants for more information.] 
Structural incentives for local officials to coerce compliance 
exacerbate the potential for abuses. In spring 2007, local 
officials in Bobai county, Guangxi Zhuang Autonomous Region 
(GZAR), initiated a wide-scale campaign to control birthrates 
after the GZAR government reprimanded officials for failing to 
meet population targets. Officials reportedly required all 
women to submit to examinations and subjected women to fines, 
forced sterilization, and forced abortions. Authorities looted 
homes and seized possessions of citizens who did not pay the 
fines.\21\ In May, Bobai residents rioted in protest of 
government abuses. Residents of Rong county, also in the GZAR, 
protested population planning policies later the same 
month.\22\ In one potentially positive development, an 
intermediate court in Hebei province agreed in 2007 to hear a 
couple's lawsuit against a local family planning commission for 
a forced abortion seven years ago, reportedly the first time a 
court has taken an appeal in this type of case.\23\
    The government has taken limited steps to address social 
problems exacerbated by population planning policies, such as 
unbalanced sex ratios\24\ and decreasing social support for 
China's aging population. In 2006, the government announced 
that the following year it would extend across China a pilot 
project to provide financial support to rural parents with only 
one child or two girls, once the parents have reached 60 years 
of age.\25\ The Communist Party Central Committee and State 
Council decision issued in 2006 describes the unbalanced sex 
ratio as ``inevitably influencing social stability,'' advocates 
steps to address discrimination against girls and women, and 
promotes measures to stop sex-selective abortion.\26\ Sex 
ratios stand at roughly 118 male births to 100 female births, 
with higher rates in some parts of the country and for second 
births. Demographers and population experts consider a normal 
male-female birth ratio to be between 103 to 107:100.\27\
    In 2006, the National People's Congress Standing Committee 
considered, but decided not to pass, a proposed amendment to 
the Criminal Law that would have criminalized sex-selective 
abortion.\28\ Local governments have instituted prohibitions 
against fetal sex-determination and sex-selective abortion. For 
example, in 2006, Henan province passed a regulation imposing 
financial penalties on these acts where they take place outside 
of limited approved parameters.\29\
    At the same time the government has taken some steps to 
deal with the sex imbalance and discriminatory attitudes toward 
girls, some provincial governments have enforced policies that 
institutionalize biases against girls by permitting families to 
have a 
second child where the first child is a girl.\30\ According to 
some observers, imbalanced sex ratios and a resulting shortage 
of marriage partners have already contributed to, or will 
exacerbate in the future, the problem of human trafficking.\31\ 
[See Section II--Human Trafficking, and Section II--North 
Korean Refugees in China.]
    Within individual provincial-level jurisdictions, a range 
of factors beyond birth rates affect local population growth. 
Internal migration has contributed to demographic shifts within 
ethnic minority autonomous regions, among other areas. In 2006, 
authorities in the Xinjiang Uighur Autonomous Region (XUAR) 
acknowledged that floating and migrant populations would 
continue to contribute to the region's high rate of population 
growth, but also announced the government would carry out its 
population planning policies by continuing measures to control 
birth rates. A series of articles from official media 
specifically indicated that the XUAR government would target 
impoverished ethnic minority areas as the focus of these 
measures.\32\ [See Section II--Ethnic Minority Rights, and 
Section IV--Tibet, for more information on population issues in 
ethnic minority areas.]
    During 2008, the Commission will continue to monitor and 
report on violations of international human rights standards in 
China related to forced abortions, social compensation fees, 
licensing for births, control of women's reproductive cycles, 
and all other issues.

                                 Health


                             MENTAL HEALTH

    In December 2006, the Beijing Municipal People's Congress 
issued a new Regulation on Mental Health. On its face, the new 
regulation prohibits local police from arbitrarily detaining 
the city's mentally ill as Beijing prepares to host the 2008 
Summer Olympic Games.\1\ Under the new regulation, which went 
into effect in March 2007, public security officials may remove 
a mentally ill person to a mental health center only if that 
person ``harms or poses a serious threat to public safety, a 
person's life, or property.'' \2\ The precise meaning of these 
words and how they are to be interpreted remain unclear.
    The new regulation requires that at least two mental health 

doctors make determinations of medical necessity for 
involuntary hospital admission. It also provides for review of 
involuntary admission by a review body. On these points the 
regulation is not dissimilar from the UN Principles for the 
Protection of Persons with Mental Illness and for the 
Improvement of Mental Health Care.\3\ However, while the UN 
Principles provide that the review body complete its review 
``as soon as possible'' and ``in accordance with expeditious 
procedures,'' the Beijing regulation requires that the review 
be completed ``within three months''--a period of time that 
could accomplish the purpose of removing persons from the 
streets for the duration of the 2008 Olympic Games (August 8-
24, 2008) or longer, without violating the letter of the 
law.\4\

                                HIV/AIDS

    Many international experts concur that over the past five 
years, the Chinese central government's policies to combat the 
spread of HIV/AIDS have, in general, progressively 
strengthened. On this issue of importance to China's leaders, 
however, the government's worries about uncontrolled citizen 
activism and foreign-affiliated nongovernmental organizations 
(NGOs) have limited their policies potential effectiveness. 
During its best periods, the government has developed a set of 
policies and laws and committed funding, and in limited but 
important ways engaged international groups and its own NGO 
community. China's HIV/AIDS policy has also demonstrated 
unusual openness to working with marginalized communities such 
as migrant workers, the homosexual community, women and men 
used in prostitution, and drug users. Due to these efforts and 
the increase in the use of anti-retroviral drugs, the death 
rate has reportedly decreased in recent years.\5\
    China recorded its first AIDS case in 1989,\6\ and by mid-
2002, official Chinese government and UN figures estimated that 
between 1 million to 1.5 million people were infected with 
HIV.\7\ Recent UN figures estimate there are about 650,000 
people living with HIV in China today, but experts believe this 
estimate to be low on account of changes in estimation 
methodology and procedures.\8\ While China is a country with a 
low prevalence of the disease nationwide, health experts say 
the disease is moving into the general population, with most 
new infections being spread sexually, followed by drug use.\9\ 
China reported 18,543 new cases of HIV in the first six months 
of 2007, which is approximately the number of cases for all of 
2006.\10\ Health officials calculate that there were on average 
200 new cases of HIV/AIDS infection in China each day in 
2005.\11\
    In 2007, China announced plans to spend 960 million yuan 
(US$127 million) on anti-retroviral drugs, expand public 
education, and conduct outreach to China's marginalized 
homosexual community.\12\ The government also expanded policies 
to further incorporate foreign governments, international 
companies, grassroots 
organizations, and trade unions in its efforts to combat HIV/
AIDS. In January 2007, the government, along with the 
International Labor Organization and the All-China Federation 
of Trade Unions, initiated a program that made HIV/AIDS 
education available in the workplace.\13\ Privately owned 
Chinese firms are also gradually becoming involved in these 
efforts, often at the request of their foreign business 
affiliates.\14\ In addition, the U.S. Department of Labor 
initiated a $3.5 million grant to support a program that 
focused on migrant workers.\15\
    Nonetheless, while national officials have emphasized the 
importance of combating HIV/AIDS, it is local implementation 
that determines whether national-level commitment and policy 
action produce outcomes of consequence on the ground. 
Implementation remains highly problematic. Fear of the disease 
has led some local officials to harass persons with HIV/AIDS 
and their advocates.\16\ Henan province, where a large number 
of villagers contracted HIV through unsanitary blood collection 
practices in the late 1980s and early 1990s, provides a 
particularly stark example:

        <bullet> In June 2003, public security officials, aided 
        by local residents, raided Xiongqiao village, an ``AIDS 
        village'' in Henan, and destroyed property, assaulted 
        residents, and arrested 13 villagers. Villagers had 
        appealed to local officials to receive previously 
        promised government assistance for AIDS patients.\17\
        <bullet> In May 2004, several people living with HIV/
        AIDS in Henan were detained for more than a week, 
        apparently for seeking 
        assistance from provincial officials to compel local 
        officials to provide promised assistance.\18\
        <bullet> In 2005, a U.S. NGO reported the violent 
        closure of a privately run orphanage for children with 
        AIDS in Henan, and another U.S. group noted that local 
        officials in Henan have organized militias to prevent 
        journalists and NGO observers from visiting AIDS 
        patients.\19\
        <bullet> In November 2005, public security officials 
        detained activist Hu Jia, co-founder of two HIV/AIDS 
        advocacy groups, when he attempted to deliver a 
        petition on behalf of more than 50 AIDS patients to 
        Vice Premier Wu Yi at a November 2005 AIDS 
        conference in Henan. Citing government pressure, Hu 
        subsequently resigned in February 2006 from one of the 
        groups, Loving Source, and is currently under 
        residential surveillance.\20\
        <bullet> In November 2006, public officials detained 
        HIV/AIDS advocacy group leader Wan Yanhai, forcing him 
        to cancel a conference on AIDS, blood-transfusion 
        safety, and legal human rights.\21\
        <bullet> In February 2007, public security officials in 
        Zhengzhou city, Henan, placed AIDS activist and doctor 
        Gao Yaojie under surveillance at her home in an attempt 
        to prevent her from traveling to the United States to 
        accept a human rights award.\22\ Central government 
        officials intervened, and Gao was subsequently granted 
        permission to travel to the United States to receive 
        the 2007 Vital Voices Global Women's Leadership Award 
        for Human Rights on March 14.\23\

    The depth of the crisis is only magnified by official 
corruption. In July 2007, the Ministry of Health (MOH) 
announced the removal of a director of a Guangdong province 
blood center as a result of his involvement in illegal blood 
sales and noted that six other people had received sentences of 
between 6 and 18 months for helping individuals repeatedly sell 
their blood using fake identity cards.\24\ In the hopes of 
reducing illegal blood trade activity, the MOH has announced 
that blood collection centers are required by the end of 
October 2007 to set up equipment to videotape plasma 
collections.\25\
    A government advisor on AIDS policy has expressed concern 
that China's efforts to combat the disease have stalled and 
that funding, which in 2006 was 3 billion yuan (US$388 
million), remains inadequate.\26\ The government's commitment 
to provide care to specific subpopulations, such as children 
orphaned as a result of AIDS and ethnic minorities infected 
with HIV, appears to be wavering.\27\ Sensitive issues, such as 
compensation for rural residents in central provinces who 
contracted HIV from the sale of blood, have hindered broader 
efforts to combat HIV/AIDS.\28\
    At the local level, an overburdened, underfunded healthcare 
system makes it difficult for governments to provide the 
necessary prevention and treatment programs. Many programs lack 
sufficient numbers of qualified doctors to properly administer 
anti-retroviral drugs and to help patients maintain needed 
treatment, with the result that many patients simply drop out 
of the programs. Public education and awareness efforts have 
not fully succeeded: 66 percent of China's population 
reportedly continues to be unaware of how to protect themselves 
against HIV.\29\ AIDS patients have also been discriminated 
against and denied treatment at hospitals.\30\

         WIDESPREAD DISCRIMINATION AGAINST HEPATITIS B CARRIERS

    China has a high rate of hepatitis B virus (HBV) infection, 
with 120 million carriers of the virus, who make up 
approximately 30 percent of the 400 million HBV carriers in the 
world.\31\ Only 70 percent of China's population has been 
vaccinated for the disease. In an attempt to reduce hepatitis B 
infection, the Ministry of Health (MOH) issued the 2006-2010 
National Plan on Hepatitis B Prevention and Control, with the 
top priority of strengthening vaccination programs, especially 
among young children. The goal is to lower the infection rate 
to 1 percent among those five years old and younger, and to 
less than 7 percent nationwide by 2010.\32\
    Until 2004, there were no national laws protecting HBV 
carriers from discrimination in the workplace, and some central 
and local governments prohibited the hiring of people with 
certain varieties of the disease.\33\ In April 2003, when 
university student Zhou Yichao was denied a public service job 
because he was an HBV carrier, he stabbed two officials in 
Zhejiang province, killing one. Zhou was later sentenced to 
death on murder charges.\34\ This incident helped to spark 
discussion over the treatment of HBV carriers. In November 
2003, HBV carrier Zhang Xianzhu of Anhui province successfully 
sued a government personnel office, complaining that his job 
application had been unjustly rejected. A court held in April 
2004 that the personnel office applied the regulation 
incorrectly, but did not invalidate the regulation itself, and 
also denied Zhang's request to be reconsidered for the civil 
service position, noting that the recruitment season had 
already ended.\35\ This was the first partially successful 
administrative lawsuit regarding discrimination against HBV 
carriers in the workplace.
    In 2004, the National People's Congress (NPC) Standing 
Committee amended the Law on the Prevention and Control of 
Infectious Diseases to prohibit discrimination against persons 
with 
infectious diseases, persons carrying a pathogen of an 
infectious disease, and persons suspected of having an 
infectious disease.\36\ In January 2005, the Ministry of 
Personnel and the MOH revised 
national standards to allow HBV carriers who do not exhibit 
symptoms of the disease to apply for employment with the 
government.\37\
    Yet discrimination against HBV carriers remains widespread. 
Even though experts and Chinese officials have publicly stated 
that hepatitis B is not infectious in most work and school 
situations, many people believe that it is and refuse to hire 
HBV carriers or interact with them on those grounds.\38\ A 2005 
China Foundation for Hepatitis Prevention and Control survey, 
covering 583 hepatitis B patients in 18 provinces, found not 
only that a majority of Chinese physicians do not have adequate 
knowledge of hepatitis B or of ways to prevent and treat the 
disease, but also that 52 percent of the respondents had faced 
discrimination in employment and education.\39\ In November 
2005, two universities in the Xinjiang Uighur Autonomous Region 
(XUAR) suspended 156 students, diagnosed as hepatitis B 
positive in their matriculation medical examinations, from 
their studies for a year.\40\ Students formed an action group 
and distributed fliers to protest this decision, and one 
student filed the first hepatitis B discrimination lawsuit in 
the XUAR against her university, Xinjiang Agricultural 
University.\41\ The student eventually withdrew her case as 
university authorities allowed her to resume her studies amid 
widespread media coverage, and support from NGOs and concerned 
individuals.\42\ As of December 2006, the other students were 
reportedly still not able to return to school.\43\
    In September 2006, Urumqi municipal education officials in 
the XUAR expelled 19 high school students who had tested 
positive for hepatitis B.\44\ After first attempting to 
petition local government bureaus, seven families later filed a 
lawsuit against the municipal education bureau, with the hope 
that the students would be allowed to continue their 
education.\45\ The Urumqi Tianshan District People's Court 
postponed the hearing date on several occasions until it 
announced on November 20 that the families had withdrawn their 
case. The families' lawyer and a NGO that works on hepatitis B 
issues believe that the case was dropped due to pressure from 
local officials and employers.\46\ In addition, public security 
officials forced Snow Lotus, an unregistered NGO based in the 
XUAR, to close in October and discontinue its work for 
reportedly drafting open letters on behalf of the students and 
breaking the story to the media.\47\ [See Section III--Civil 
Society for more information on this case.] Local education 
officials maintain that the students were expelled in order to 
protect other pupils, yet central officials and experts have 
condemned the expulsion.\48\ According to Mao Qun'an, a MOH 
representative, ``This is prejudice. All these students can go 
to school unless they are sick enough to be hospitalized.'' 
\49\
    Most recently, a 2007 survey on health discrimination in 
the workplace found that 49 percent of respondents would be 
unwilling to work with HBV carriers, and 55 percent noted that 
they would not hire HBV carriers.\50\ Employer screening for 
HBV remains common, especially in cities.\51\ A Chinese job 
applicant filed a lawsuit against Nokia in March 2007, alleging 
that its China branch denied him employment after he underwent 
a company medical examination and was found to be a HBV 
carrier.\52\ The applicant is claiming 500,000 yuan (US$66,613) 
in emotional damages in what is reportedly the first hepatitis 
B discrimination case against a foreign multinational company 
in China.\53\ The Dongguan People's Court accepted the case in 
May, and court proceedings began on August 15 and concluded 
with a decision by the judge to select a retrial date.\54\ At 
press time, the court has yet to publicly issue a decision or a 
retrial date. In some online forums, there is active discussion 
of this case, as well as other cases of discrimination against 
HBV carriers.\55\
    In May 2007, the MOH and the Ministry of Labor and Social 
Security issued a non-legally binding opinion to protect the 
employment rights of HBV carriers, including a prohibition 
against mandatory HBV screening for job applicants, except for 
those positions that were previously designated as forbidden 
for HBV carriers.\56\ On August 30, 2007, the NPC Standing 
Committee adopted the Employment Promotion Law, which 
stipulates provisions that could benefit HBV carriers seeking 
employment.\57\ For example, Article 30 of the new law 
prohibits employers from refusing to hire applicants on the 
grounds that they carry infectious diseases, except for those 
industries barred to formally certified infectious disease 
carriers because of the possibility that they might spread the 
disease, and Article 62 allows workers to file a lawsuit 
against employers who violate provisions of the new law and 
discriminate against employees.\58\ Without the concurrent 
creation of effective programs to raise public awareness of how 
the disease is spread, incentives for local implementation, and 
a clear and comprehensive definition of discrimination,\59\ the 
impact of these regulatory measures remains to be seen.\60\

      STATE CONTROL OF INFORMATION RELATING TO SARS AND AVIAN FLU

    In July 2007, military officials denied Dr. Jiang Yanyong 
permission to travel to the United States to receive a human 
rights award. Dr. Jiang had previously informed foreign media 
of government attempts to cover up the SARS outbreak in 
2003.\61\ In addition, Chinese laws still require journalists 
to get advance approval before publishing public health 
information about broad categories of diseases classified as 
``state secrets.''
    Chinese public health officials sought to improve their 
ability to prevent and control the spread of avian flu by 
improving the flow of information between lower officials and 
higher officials following the mishandling of the SARS epidemic 
in 2003. The State Council issued regulations in November 2005 
requiring provincial governments to report ``major'' animal 
epidemics to the State Council within four hours of discovering 
them, and county and city governments to report cases to 
provincial authorities within two hours. Officials who are 
found negligent in reporting outbreaks face removal from office 
and potential prosecution.\62\
    Such laws allow for improved internal channels of 
information but do not necessarily guarantee free flow of 
information to the public. The Law on the Protection of State 
Secrets and implementing regulations in the area of public 
health continue to serve as a hindrance to the free flow of 
information on public health matters. For example, the 
Regulation on State Secrets and the Specific Scope of Each 
Level of Secrets in Public Health Work, issued in 1996, 
categorize as state secrets information on large-scale 
epidemics of viral hepatitis and other diseases that has not 
been authorized for public disclosure by the government.\63\ A 
new national Regulation on the Public Disclosure of Government 
Information, issued in April 2007, contains provisions that 
require agencies to disclose information on public health 
supervision and sudden emergencies, but these ``state secret'' 
exceptions remain in place.\64\ [See Section II--Freedom of 
Expression.]

                        HEALTHCARE SYSTEM REFORM

    During the 1980s, the government abolished its previous 
rural healthcare system, which was based on village clinics 
staffed by ``barefoot doctors'' and financed by cooperative 
insurance.\65\ The government did not replace the previous 
system with a new rural cooperative medical system until 
2003.\66\ From 1977 to 2002, the number of doctors in rural 
China decreased from 1.8 million to 800,000, and the number of 
rural healthcare workers decreased from 3.4 million to 
800,000.\67\ Eighty percent of medical resources are now 
concentrated in cities.\68\ The rural-urban disparity is also 
apparent in mortality statistics. Residents of large cities in 
China live 12 years longer than rural residents, and the infant 
mortality rate in some rural areas is nine times higher than in 
large cities.\69\

                            Urban Healthcare

    The government established a public health insurance 
program for employed urban residents in 1998, and by the end of 
2006, 
approximately 160 million out of the country's 500 million 
urban residents received coverage.\70\ In July 2007, Premier 
Wen Jiabao announced plans to establish a national health 
insurance program to cover all urban residents, including 
children, the elderly, and the uninsured, over the next three 
years. The central government has selected 79 cities to launch 
pilot programs by the end of September 2007.\71\ In order to 
improve community-level medical services in urban areas, large 
city hospitals will provide facility and staff support to 
community health clinics, and a data-sharing system will be 
established.\72\

                            Rural Healthcare

    Under China's Rural Cooperative Medical System (RCMS), a 
farmer and each family member that participates in the system 
pays an average premium of 10 yuan (US$1.25) each year into a 
personal medical care account, with governments at all levels 
subsidizing an additional 40 yuan (US$5) on average.\73\ 
Participants may have up to 65 percent of their healthcare 
costs reimbursed, but are required to first pay such costs out 
of pocket.\74\ The scope of the RCMS's coverage, and government 
spending on healthcare, has increased in recent years. The 
government reported that the number of counties covered by the 
RCMS increased from 687 pilot counties in 2005 to 1,451 
counties (50.7 percent of China's rural areas) at the end of 
2006.\75\ Prior to implementation of the RCMS, the percentage 
of rural residents with health insurance coverage reportedly 
reached a low of 7 percent in 2002.\76\ After the RCMS was 
introduced in 2003, the government reported that coverage had 
increased to 51 percent by February 2007.\77\ The amount of 
money the central government has announced it plans to spend on 
rural healthcare also increased from 2.073 billion yuan (US$252 
million) in 2004 to 5.8 billion yuan (US$750 million) in 2006, 
and reportedly to 10.1 billion yuan (US$1.33 billion) in 
2007.\78\ Since the establishment of the RCMS, some areas have 
reported increases in the number of hospitalized patients and 
in the amount of revenue for local clinics.\79\

                       Rising Cost of Healthcare

    Some senior Chinese officials and scholars have questioned 
the fairness and efficiency of the medical and healthcare 
system. The poorest residents in rural areas frequently do not 
enroll in the cooperatives because they cannot afford the 
required fee. As many as 50 percent of farmers who fall ill do 
not seek healthcare for economic reasons, and half of all 
children who die in rural areas had not received medical 
treatment.\80\ For rural participants especially, the 
reimbursement level remains inadequate. The average 
reimbursement rate is 27.5 percent, determined in part by the 
specific disease and the local government's budget.\81\ Many 
counties and townships do not have the financial resources to 
supply their portion of the fund. In addition, rural clinics 
are poorly funded and lack adequate medical personnel and 
equipment.\82\
    High medical costs have become the top concern of Chinese 
citizens, according to a 2006 Chinese Academy of Social 
Sciences survey on ``Problems that Affect Social Harmony and 
Stability,'' with medical expenses comprising 11.8 percent of 
an average family's total annual spending.\83\ There has also 
been an increase in violent attacks on doctors and hospital 
personnel as citizens protest rising costs, medical errors, and 
declining professional ethics.\84\ In 2006, hospitals reported 
9,831 cases of violence, more than 200 million yuan (US$25.6 
million) in damages to hospital facilities, and 5,519 medical 
personnel injuries, an increase from 5,093 cases of violence, 
67 million yuan (US$8.8 million) in damages, and 2,600 medical 
personnel injuries in 2002.\85\
    To address some of these issues, the Ministry of Health 
relocated approximately 5,500 doctors and nurses from urban 
areas to rural areas in 2007 to treat rural patients and train 
local medical personnel.\86\ In addition, the central 
government has set a goal of renovating 22,000 village clinics, 
1,300 county-level general hospitals, 400 county-level 
traditional or ethnic minority hospitals, and 950 county-level 
maternity and childcare institutes by 2010, and has pledged 
more than 20 billion yuan (US$2.5 billion) for the task.\87\

                           Human Trafficking


                              INTRODUCTION

    The Chinese government has taken some steps to establish a 
national-level anti-trafficking coordinating mechanism, to 
increase public awareness, to expand the availability of some 
social services for victims of trafficking, and to improve 
international cooperation. The Chinese government reports that 
efforts have led to a decline in some forms of trafficking, but 
also notes that there has been an increase in other forms of 
trafficking that have not received as much attention, such as 
using trafficking victims to perform forced labor or engage in 
commercial sex. Within the past five years, for example, there 
has been a rise in cross-border trafficking cases, with 
internal and international traffickers increasingly working 
together. The U.S. State Department also notes that the Chinese 
government ``continued to treat North Korean victims of 
trafficking as economic migrants, routinely deporting them back 
to horrendous conditions in North Korea.'' \1\

                     DEVELOPMENTS IN THE PAST YEAR

    The National People's Congress Standing Committee revised 
the PRC Law on the Protection of Minors on December 29, 2006, 
which became effective June 1, 2007, to explicitly prohibit the 
trafficking of minors.\2\ Article 41 of the revised law 
contains new provisions that prohibit the trafficking, 
kidnapping, and maltreatment, including sexual exploitation, of 
minors, although these terms are not 
defined.\3\ In July 2007, the All-China Women's Federation 
(ACWF) and the Ministry of Public Security (MPS) held the first 
National Anti-Trafficking Children's Forum, in which an MPS 
spokesperson noted the increase in the number of cases of 
forced labor trafficking and trafficking for commercial sexual 
exploitation, and an annual decrease in the number of cases 
handled by the MPS that relate to the trafficking of women and 
children for marriage and adoption.\4\
    Official Chinese case statistics suggest, however, that 
China is either not publishing accurate data on the incidence 
of human trafficking, uses non-standard categories for these 
crimes, or has low prosecution rates in these cases. In 2005, 
the MPS reported that Chinese police departments nationwide 
opened 2,884 cases of ``abducting women and children,'' of 
which they reported ``investigating and handling'' just over 
2,400 cases. In 2006, the total number of cases investigated 
and resolved was just over 2,100. Police press reports portray 
the trends as evidence that such abduction cases have declined 
in society since the 1980s and 1990s, and as proof of the 
``obvious effectiveness'' of their policies.\5\ By contrast, 
the U.S. State Department's 2007 Trafficking in Persons Report 
notes that ``an estimated minimum of 10,000 to 20,000 victims'' 
are trafficked internally each year.\6\ The ACWF-MPS forum also 
touched on legal protections for trafficking victims. According 
to the MPS spokesperson, ``In trafficking and abduction 
aspects, China's legal protection is underdeveloped, and it 
needs to be further strengthened.'' \7\ The forum noted, for 
example, that China's Criminal Law provides punishment for the 
trafficking of women and children, but neglects minors over 14 
and male adults, who are often targeted for forced labor.\8\

                     TRENDS IN THE PAST FIVE YEARS

    China's Ministry of Public Security reports that efforts to 
combat human trafficking have led to a decline in some forms of 
trafficking, but that there has also been an increase in other 
forms of trafficking that have not received as much attention, 
such as using trafficking victims to perform forced labor.\9\ 
As the U.S. State Department reports in its annual review of 
global human trafficking, China ``is a source, transit, and 
destination country'' for human trafficking.\10\ Domestic 
trafficking continues to comprise the majority of trafficking 
cases in China. Women and children, who make up 90 percent of 
the cases, are trafficked from poorer provinces to more 
prosperous provinces on the east coast.\11\ Some experts note 
that the Chinese government's attention to human trafficking 
for commercial sexual exploitation appears to be uneven, with 
far greater concern shown towards the internal trafficking of 
Chinese girls and women and little concern over foreign girls 
and women who are trafficked into China or who enter China 
voluntarily but are subsequently trafficked. Many of these 
women are from Vietnam, North Korea, and Mongolia, among other 
countries, and are treated as immigration violators who are 
detained and subsequently repatriated.\12\
    There have also been increases in the number of cross-
border trafficking cases and, especially between 2004 and 2006, 
an increase in the number of infant trafficking cases.\13\ The 
rising number of infant trafficking cases in China reflects 
many factors, such as China's population planning policies, 
economic disparity, and a lack of awareness among the general 
public [see Section II--Population Planning]. Most of the 
infants who have been rescued were male, but the increased 
demand for children has reportedly driven traffickers to 
traffic females as well.\14\ Some of the cases involved social 
service organizations buying infants that had been abducted, 
and selling them to adoptive families at marked-up prices, as 
well as traffickers buying infants from private medical clinics 
and other social service organizations and selling them to 
buyers elsewhere.\15\ In 2007, the U.S. State Department placed 
China on its Tier Two Watch List for the third consecutive year 
due to the Chinese government's failure to show evidence of 
efforts to improve comprehensive victim protection services and 
to address trafficking of persons for forced labor.\16\

                   INTERNATIONAL LAWS AND OBLIGATIONS

    The Chinese government ratified the UN Convention against 
Transnational Organized Crime on September 23, 2003, but still 
has not ratified its protocol that addresses trafficking in 
persons. The protocol represents the first global legally 
binding definition of trafficking in persons and aims to 
support international cooperation in investigating and 
prosecuting cases and in protecting and assisting victims of 
trafficking.\17\ In addition, China has ratified the Convention 
to Eliminate All Forms of Discrimination against Women and the 
Convention on the Rights of the Child, which further legally 
bind the Chinese government to suppress and prevent the 
abduction and trafficking of women and children.\18\

      DOMESTIC EFFORTS TO COMBAT HUMAN TRAFFICKING AND CHALLENGES

    Central and local governments have taken steps to combat 
trafficking within the past five years, but these initiatives 
remain inadequate to effectively address the root causes of 
human trafficking and forms of trafficking such as forced 
labor. For example, Article 39 of the Law on the Protection of 
Women's Rights and Interests (LPWRI), which was amended in 
2005, expanded the number of organizations responsible for 
preventing trafficking in women and rehabilitating victims, 
including local women's federations and local public security, 
labor, social security, and health bureaus.\19\ The central 
government announced in 2007 that it will establish a national-
level anti-trafficking coordinating mechanism that aims to 
strengthen interagency cooperation, as at least seven agencies 
currently have regulatory responsibilities to combat 
trafficking.\20\
    The 2003 and 2004 Commission Annual Reports noted that the 
central government initiated several short-term ``Strike Hard'' 
campaigns to punish traffickers and rescue victims.\21\ But 
these campaigns have not proven to be effective instruments 
that address the causes of trafficking, nor do they introduce 
administrative and legal mechanisms to combat future 
trafficking operations. ``Strike Hard'' campaigns have also 
been characterized by extensive violations of criminal 
procedure rights.\22\ Some provincial and municipal governments 
have localized efforts to combat trafficking by creating short-
term rehabilitation centers, and increasing public awareness 
efforts that inform people of their legal protections and 
resource options.\23\ For example, Sichuan provincial public 
security officials have created informational fliers, public 
service announcements, and pamphlets that explain legal 
protections, resources, and hotline numbers that are aimed at 
migrant workers and other workers who are most at risk.\24\ In 
addition, within the past year, Yunnan provincial authorities 
held a media outreach seminar to raise awareness among 
journalists of anti-trafficking strategies, victim protection, 
and relevant legislation.\25\
    These preliminary steps are positive, but local governments 
need to expand them to include more comprehensive victim 
rehabilitation services such as psychological counseling and 
long-term care. While there are currently legal prohibitions 
against some types of human trafficking, these protections do 
not prohibit forms of trafficking such as debt bondage or 
commercial sexual exploitation that involves coercion or 
fraud.\26\ Another hurdle is the difficulty central government 
officials face in compelling local law enforcement officials to 
aggressively pursue cases that cross jurisdictional boundaries, 
especially as more trafficking cases take place across 
provincial and national borders.\27\ For example, U.S. experts 
have noted that ``local Party dominance over law enforcement 
creates powerful 
incentives for local police departments to neglect their 
responsibilities to share crime-related data and intelligence 
with other jurisdictions.'' \28\

                       INTERNATIONAL COOPERATION

    Central and local governments have increased cooperation 
with other countries to investigate and prosecute trafficking 
cases involving women and children. In particular, the Chinese 
government has discussed trafficking in persons with the United 
States as part of the bilateral China-U.S. Global Issues Forum, 
and has worked to improve its cross-border prosecution efforts 
with such countries as Vietnam.\29\ China is also actively 
cooperating with international organizations such as the 
International Labor Organization, the International 
Organization for Migration, and the United Nations Interagency 
Project on Human Trafficking in the Greater Mekong Sub-region 
on programs to prevent and combat human trafficking.\30\ The 
Chinese government has prepared a National Plan of Action to 
address the trafficking of women and children, which it still 
has not adopted.\31\ A September 4, 2007, China Daily article 
noted that the government hopes to adopt the national action 
plan by the end of 2007.\32\

                     North Korean Refugees in China

    In 2006-2007, China continued to fail in its obligations to 
the thousands of North Korean refugees who crossed its 
northeastern border to escape North Korea's chronic food 
shortages and political oppression. While an accurate estimate 
of the size of this underground population is probably not 
possible, in recent years the U.S. State Department and several 
NGOs have estimated that 20,000 to 50,000 North Koreans 
currently are hiding in northeastern China. Chinese civilian, 
law enforcement and military experts speaking in 2005-2006 
typically cited an estimate of 30,000 to 50,000.\1\ An October 
2006 report by the International Crisis Group surveyed the 
opinions of many NGO experts and reached an estimate that the 
total number of North Korean refugees residing on Chinese soil 
is approximately 100,000.\2\ As noted by the State Department's 
2007 Trafficking in Persons (TIP) report, these refugees, many 
of whom are women, are unable to work legally in China. Thus, 
many of them are highly vulnerable to being kidnapped by 
traffickers:

        The illegal status of North Koreans in the People's 
        Republic of China (P.R.C.) and other Southeast Asian 
        countries increases their vulnerability to trafficking 
        schemes and sexual and physical abuse. In the most 
        common form of trafficking, North Korean women and 
        children who voluntarily cross the border into P.R.C. 
        are picked up by trafficking rings and sold as brides 
        to P.R.C. nationals, usually of Korean ethnicity, or 
        placed in forced labor. In a less common form of 
        trafficking, North Korean women and girls are lured out 
        of North Korea by the promise of food, jobs, and 
        freedom, only to be forced into prostitution, marriage, 
        or exploitative labor arrangements once in P.R.C.\3\

    The U.S. State Department reports that during 2006 
``several thousand North Koreans were reportedly detained and 
forcibly returned to North Korea.'' \4\ To encourage these 
repatriation efforts, central government authorities assign 
local public security bureaus in northeastern China a target 
number of North Koreans that they must detain in order to 
receive favorable work evaluations.\5\ To persuade civilians in 
these areas not to assist the refugees, the government also 
provides financial rewards to citizens who reveal the 
locations of refugees.\6\ By employing these incentive and 
punishment systems on citizens to turn these refugees in, China 
deliberately undermines its own international legal obligations 
to 
refrain from repatriating North Koreans and further deters its 
citizens from supplying humanitarian assistance. In the past 
several years, the government has reportedly built new 
detention centers along the Chinese-Mongolian border and the 
Chinese-North Korean border in order to accommodate more North 
Koreans before it repatriates them.\7\
    By returning these refugees to the DPRK , China is in 
contravention of its obligations under the 1951 Convention 
relating to the Status of Refugees (1951 Convention) and its 
1967 Protocol (Protocol). Under the 1951 Convention and its 
Protocol, no contracting state may ``expel or return 
(`refouler') a refugee in any manner whatsoever to the 
frontiers of territories where his life or freedom would be 
threatened on account of his race, religion, nationality, 
membership of a particular social group or political opinion.'' 
\8\
    The Chinese government classifies all North Koreans who 
enter China without documents as illegal economic migrants 
without making any effort to determine whether or not they are 
refugees, and claims that it must return them to the DPRK. In a 
June 19, 2007, press conference Ministry of Foreign Affairs 
press spokesperson Qin Gang repeated China's longstanding 
insistence that these migrants ``came to China for economic 
reasons and they are not `refugees' at all.'' \9\ In addition, 
the Chinese government bases its policy of repatriating North 
Koreans on a 1961 treaty with the DPRK and a series of 
protocols on border management signed by the two countries in 
1986 and 1998.\10\ But China is also obligated under Article 3 
of the Convention Against Torture not to forcibly return any 
person to another state where there are substantial grounds for 
believing that he or she would be in danger of torture.\11\ 
Under the general international legal principle of non-
derogation, China's bilateral commitments with the DPRK should 
not supersede China's international obligations under the 1951 
Convention, its Protocol, and the Convention Against 
Torture.\12\
    Moreover, the treatment these refugees receive upon their 
repatriation to the DPRK provides more than ample evidence that 
they satisfy the definition of refugees under international 
law. The 1951 Convention defines a refugee as someone who, 
``owing to well-founded fear of being persecuted for reasons of 
race, religion, 
nationality, membership of a particular social group or 
political opinion, is outside the country of his nationality 
and is unable or, owing to such fear, is unwilling to avail 
himself of the protection of that country.'' \13\ In a 2005 
report, the UN Special Rapporteur on Human Rights in North 
Korea noted that even North Koreans who have crossed into China 
for reasons of livelihood are nevertheless ``refugees sur 
place,'' a designation for those who ``did not leave their 
country of origin for fear of persecution, but who fear 
persecution upon return.'' \14\
    The DPRK government imprisons, tortures, and executes 
repatriated North Koreans, and has increased the punishment for 
border crossers since late 2004. Article 233 of the amended 
North Korean Penal Code provides for up to two years' 
imprisonment for citizens who leave the DPRK without 
permission, and Article 62 provides for no less than five 
years' imprisonment for defectors, and life imprisonment or 
execution for defectors deemed to have committed ``an extremely 
grave offense.'' \15\ According to international NGOs, North 
Koreans are considered to have committed a more serious 
offense, and are punished more harshly, if they have converted 
to Christianity or have met with Christian missionaries, South 
Koreans, or other foreigners while in China.\16\ In late 2004, 
the North Korean government changed its policy toward 
repatriated border crossers to increase prison sentences from 
several months to several years and to detain them in regular 
prisons, which have harsher regimes, rather than labor 
camps.\17\ Defector testimonies document cases of beatings, 
forced labor, lack of food and medicine, degrading treatment, 
torture, and execution.\18\ Pregnant female defectors have 
reportedly been subjected to forced abortions under poor 
medical care. According to a South Korean Bar Association 
study, defectors have also reported witnessing North Korean 
authorities carry out forced abortions.\19\
    The Chinese government blanketly asserts that North Korean 
migrants are not refugees, and does not permit individual 
petitions for asylum. The government also denies the UN High 
Commissioner for Refugees (UNHCR) and other organizations the 
access needed to evaluate their claims. Chinese guards posted 
outside the UNHCR office and foreign embassies in Beijing block 
access to North Koreans who seek to present refugee 
petitions.\20\ The government's failure to allow for a process 
in order to evaluate whether individual North Koreans have 
reason to fear persecution upon return to the DPRK contravenes 
its obligations under the 1951 Convention and its Protocol, as 
identified by the U.S. Committee for Human Rights in North 
Korea: ``Implicit in the Convention--the strict Article 33 
prohibition read together with the multi-pronged Article 1 
refugee definition--is a requirement that states take 
appropriate steps to determine whether an individual is a 
refugee before sending him or her back to possible 
persecution.'' \21\ This refusal of access by the UNHCR also 
contravenes Article 35 of the 1951 Convention.\22\
    The government fines and imprisons Chinese citizens and 
international humanitarian workers who assist North Korean 
refugees, and these penalties have recently been increased. In 
2006, Chinese authorities sentenced Hong Jin-hee, Kim Hong-
kyun, and Lee Soo-cheol, three South Korean citizens and former 
North Korean defectors, to seven, five, and two years' 
imprisonment, respectively, for assisting North Koreans in 
China to seek asylum in a third country. Chinese authorities 
detained Kim and Lee in Beijing in October 2004, and Hong in 
Shenyang in November 2004, and have held the three without 
trial until their sentencing in 2006.\23\ In November 2006, 
authorities in Yantai city, Shandong province, released on 
parole Choi Yong-hoon, a South Korean citizen imprisoned for 
assisting North Koreans in China to seek asylum in South Korea, 
after Choi served 3 years and 11 months of his 5-year 
sentence.\24\
    The Chinese government is reportedly in the final stages of 
drafting a Regulation on the Administration of Refugees.\25\ A 
June 2007 report in the official People's Daily said that ``the 
government draft national refugee regulation [is] now in its 
final phase,'' but that ``[i]t is unclear when the draft will 
be submitted to the State Council for final review and 
approval.'' The report also mentions the UNHCR role in 
``helping . . . [to] draft'' the regulation.\26\ In March 2006, 
the UNHCR said that his office would be involved in insuring 
that the regulation is in compliance with international 
law.\27\ The drafting process for these regulations provides 
Chinese officials with an opportunity to carry out a long 
overdue reassessment of their refugee policies to make them 
accessible and transparent, providing every refugee with a 
chance for a legal hearing and an appeal if necessary.

                    Freedom of Residence and Travel


                          FREEDOM OF RESIDENCE

    The Chinese government continues to enforce the household 
registration (hukou) system it first established in the 1950s. 
This system limits the right of Chinese citizens to determine 
their permanent place of residence. Regulations and policies 
that condition legal rights and access to social services on 
residency status have resulted in discrimination against rural 
hukou holders who migrate for work to urban areas. The hukou 
system exacerbates barriers that migrant workers and their 
families face in areas such as employment, healthcare, property 
rights, legal compensation, and schooling. [See Section II--
Worker Rights for more information.] Central and local 
government reforms from the past five years have mitigated some 
obstacles to equal treatment, but provisions that allow people 
to change hukou status have included criteria that advantage 
those with greater economic and educational resources or with 
family connections to urban hukou holders.\1\ The government's 
restrictions on residence and discrimination in equal treatment 
contravene international human rights standards,\2\ including 
those in treaties China has signed or ratified.\3\ In May 2005, 
the UN Committee on Economic, Social, and Cultural Rights 
expressed ``deep concern'' over the discrimination resulting 
from ``inter alia, the restrictive national household 
registration system (hukou) which continues to be in place 
despite official announcements regarding reforms.'' \4\
    Recent reforms have addressed some of the burdens migrants 
face. In 2001, the State Council expanded an earlier program to 
allow rural migrants who meet set requirements to migrate to 
small towns and cities and obtain hukou there, while keeping 
rural land rights.\5\ In 2003, the State Council abolished 
``Measures for the Custody and Repatriation of Vagrant Beggars 
in Cities'' that allowed the police to detain, at will, people 
without identification, residence, or work permits.\6\ The same 
year, the State Council issued a national legal aid regulation 
that does not condition legal aid on residence status.\7\
    Central government directives promulgated in 2003 and 
beyond also have called for reform, though many have had 
limited formal legal force and limited impact.

        <bullet> In 2003, the State Council issued a directive 
        acknowledging migrants' right to work in cities, 
        forbidding discriminatory policies, and calling for 
        improved services for migrants and their families.\8\
        <bullet> Also in 2003, the State Council issued legal 
        guidance ordering urban governments to take 
        responsibility for educating migrant children.\9\
        <bullet> A 2004 State Council directive called for an 
        end to discriminatory work restrictions against 
        migrants.\10\
        <bullet> The Ministry of Labor and Social Services 
        (MOLSS) issued a labor handbook the following year 
        stating that the MOLSS will not require migrants to 
        obtain a work registration card in their place of 
        origin before seeking jobs in urban areas.\11\
        <bullet> A joint opinion on the promotion of a ``new 
        socialist countryside'' issued in 2005 by the Communist 
        Party Central Committee and the State Council called 
        for reforms to the hukou system, including a 
        reiteration of prior reform measures that stalled at 
        the local level.\12\
        <bullet> In 2006, the State Council issued an opinion 
        addressing various issues affecting migrant workers and 
        calling for measures to ease, under certain conditions, 
        migrants' ability to settle in urban areas.\13\
        <bullet> 2006 revisions to the compulsory education law 
        codify a guarantee of equal educational opportunities 
        for children outside the jurisdiction of their hukou 
        registry.\14\
        <bullet> During the 10th session of the National 
        People's Congress (NPC) in March 2007, Chinese 
        legislators approved a resolution creating a delegate 
        quota in the NPC reserved for migrant workers.\15\
        <bullet> In 2007, the Ministry of Public Security 
        formulated a series of proposals to submit to the State 
        Council for approval.\16\ Major reforms in the proposal 
        include improving the temporary residence permit 
        system, improving the ability of migrants' spouses and 
        parents to transfer hukou to urban areas, and using the 
        existence of a fixed and legal place of residence as 
        the primary basis for obtaining registration in a city 
        of residence.\17\

    Uneven implementation of hukou reform at the local level 
has dulled the impact of national calls for change. Fiscal 
burdens placed on local governments have served as 
disincentives for implementing reforms. Fears of population 
pressures and citizen activism, in addition to discriminatory 
attitudes against migrants, also have fueled resistance from 
local governments.\18\ Since 2001, many provinces and large 
cities have implemented measures that allow migrants to obtain 
an urban hukou, but they generally give preference to wealthier 
and more educated migrants by conditioning change in status on 
meeting requirements such as having ``a stable place of 
residence'' and a ``stable source of income,'' as defined in 
local provisions.\19\ New reforms instituted in Chengdu in 2006 
allow some migrants to obtain a hukou where they rent housing 
in the city and reside in it for over a year, but the reforms 
also impose conditions that disadvantage poorer migrants.\20\ 
Other policies also are detrimental to broader reforms of the 
hukou system. In 2005, authorities in Shenzhen implemented 
tighter restrictions against migrants by suspending the 
processing of hukou applications for migrants' dependents. 
Authorities also said they would limit the growth of private 
schools for migrant children and require migrant parents to pay 
additional fees to enroll their children in public schools.\21\ 
In 2006, Shenyang municipal authorities reversed 2003 
relaxations on hukou requirements when they reinstituted 
temporary residence requirements for migrants.\22\
    Some local government measures have been beneficial to 
improving conditions for migrants. After the State Council 
called in 2004 for abolishing employment restrictions for 
migrants, the Beijing municipal government followed suit with 
local reforms in 2005 that eliminated restrictions on migrant 
workers holding certain occupations.\23\ In 2005, Henan 
provincial authorities reported that they would institute 
measures to increase migrant workers' access to healthcare 
while in urban areas.\24\ In 2006, authorities in a district 
within the city of Xi'an reported instituting measures granting 
all residents equal access to social services.\25\ Some local 
governments have removed discriminatory compensation levels for 
rural migrants. In October 2006, the Chongqing High People's 
Court issued an opinion stipulating that rural migrants who 
have resided in Chongqing for over a year and have an 
``appropriate source of 
income'' are entitled to the same compensation as urban hukou 
holders in traffic accident cases.\26\ The Supreme People's 
Court is currently contemplating a new judicial interpretation 
on the role of hukou status in determining death compensation 
rates.\27\
    Central and local governments have accompanied measures to 
address discrimination against migrants with calls to 
strengthen supervision over migrant populations, reflecting 
concerns over 
perceived social unrest. The 2003 directive articulating broad 
protections for migrant workers also supports measures to 
increase control over them, including through ``social order 
management responsibility systems.'' \28\ Although a government 
official called in 2005 for transforming management techniques 
from methods of control to methods of service,\29\ authorities 
have continued to enact measures to exert government control. A 
circular from Henan province issued in 2006 called for 
monitoring migrants by keeping files on their rental 
housing.\30\

                           FREEDOM OF TRAVEL

    The Chinese government continues to enforce restrictions on 
citizens' right to travel, in violation of international human 
rights standards.\31\ The Law on Passports, effective January 
2007, articulates some beneficial features for passport 
applicants, but gives officials the discretion to refuse a 
passport where ``[t]he competent organs of the State Council 
believe that [the applicant's] leaving China will do harm to 
the state security or result in serious losses to the benefits 
of the state.'' \32\ Authorities restrict travel to penalize 
citizens who express views they deem objectionable. The Chinese 
government initially failed to approve democracy activist Yang 
Jianli's passport application,\33\ which he submitted after his 
release from prison in April 2007.\34\ In August, however, 
authorities 
allowed Yang to travel to the United States. Authorities had 
detained Yang in 2002 when he crossed into China on another 
person's passport. Authorities had earlier refused to renew his 
passport and had barred him and other activists from entering 
the country.\35\ Chinese officials have prevented other 
activists from traveling abroad, including rights defender Tang 
Jingling, whose passport was confiscated by Guangdong border 
authorities in September 2006 as he was en route to New York. 
Tang brought an administrative lawsuit against the government 
in December 2006.\36\ In February 2007, the government 
prevented a group of writers from participating in a conference 
in Hong Kong by denying visas to some writers, warning others 
not to attend, and directly preventing some from passing 
through border controls into Hong Kong.\37\ [See Section II--
Freedom of Expression for more information.] In June 2007, 
authorities intercepted human rights defenders Yao Lifa and 
Zeng Jinyan at the airport and prevented them from traveling to 
an overseas human rights conference.\38\ In July, 
authorities rejected Mongol rights advocate Gao Yulian's 
passport application on the grounds of ``possible harm to state 
security and national interests.'' \39\ In August, Shanghai 
authorities denied the passport applications of rights defense 
lawyer and former political prisoner Zheng Enchong and his 
spouse Jiang Meili.\40\ The same month, authorities in Beijing 
prevented Yuan Weijing, spouse of imprisoned rights activist 
Chen Guangcheng, from traveling overseas to accept an award for 
her husband.\41\ In 2007, authorities also denied passport 
applications from the family members of defense lawyer Gao 
Zhisheng.\42\
    The government also uses travel restrictions to control 
religious citizens' overseas travel and to punish religious 
adherents deemed to act outside approved parameters. [See 
Section II--Freedom of Religion for more information.] The 
central government has increased control over Muslims' ability 
to undertake overseas religious pilgrimages, especially since 
2004. In June 2007, overseas media reported that authorities in 
the Xinjiang Uighur Autonomous Region (XUAR) implemented a 
policy to confiscate passports from Muslims, and Uighurs in 
particular, in a reported effort to enforce restrictions on 
overseas pilgrimages.\43\ In July, the XUAR government 
announced the public security bureau would strengthen passport 
controls as part of its campaign to curb unauthorized 
pilgrimages.\44\ House church leader Zhang Rongliang, who 
resorted to obtaining illegal travel documents after the 
government refused to issue him a passport, was sentenced to 
seven and one-half years' imprisonment in 2006 on charges of 
illegally crossing the border and fraudulently obtaining a 
passport.\45\ Also in 2006, authorities detained two leaders of 
the unregistered Wenzhou diocese, Peter Shao Zhumin and Paul 
Jiang Surang, after they returned from a pilgrimage to Rome. 
Six months after their detention, Shao and Jiang received 
prison sentences of 9 and 11 months, respectively, after 
authorities accused them of falsifying their passports and 
charged them with illegal exit from the country.\46\ 
Authorities placed house church historian and former political 
prisoner Zhang Yinan and his family under surveillance in 2006 
after he tried to apply for a passport to attend a religious 
function in the United States.\47\

                                Endnotes

    Notes to Section II--Status of Women
    \1\ CECC, 2003 Annual Report, 2 October 03, 47.
    \2\ Ibid., 47-49; CECC, 2004 Annual Report, 5 October 04, 56-57; 
CECC, 2006 Annual Report, 20 September 06, 97-98.
    \3\ CECC, 2004 Annual Report, 55-56; CECC, 2005 Annual Report, 11 
October 05, 67, 69; CECC, 2006 Annual Report, 99.
    \4\ CECC, 2004 Annual Report, 56-58; CECC, 2005 Annual Report, 67-
68; CECC, 2006 Annual Report, 97-99.
    \5\ CECC, 2005 Annual Report, 67; CECC, 2006 Annual Report, 97-98.
    \6\ PRC Constitution, art. 48. Article 48 declares that women are 
equal to men and names women as a ``vulnerable social group'' requiring 
special protection.
    \7\ The State Council Women's Development Program, 2001-2010 
[Zhongguo funu fazhan gangyao, 2001-2010], May 2001.
    \8\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, amended 28 August 05; CECC, 2005 Annual Report, 67-
68.
    \9\ These include Liaoning province (2006), Heilongjiang province 
(2006), Jiangxi province (2006), Hunan province (2006), Shaanxi 
province (2006), Xinjiang province (2006), Wenzhou municipality (2006), 
Shanghai municipality (2007), and Guangdong province (2007), among 
others. See ``Wenzhou City Issues New Domestic Violence Provisions,'' 
CECC China Human Rights and Rule of Law Update, December 2006, 16-17; 
``Regarding the Amended Shanghai Law on the Protection of Women's 
Rights and Interests Implementing Measures,'' People's Daily (Online), 
11 May 07; Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope,'' China Women's News, reprinted in Women Watch--
China (Online), 7 June 07.
    \10\ ``Regarding the Amended Shanghai Law on the Protection of 
Women's Rights and Interests Implementing Measures,'' People's Daily.
    \11\ CECC, 2002-2004 Annual Reports.
    \12\ CECC Staff Interview; ``Wenzhou City Issues New Domestic 
Violence Provisions,'' CECC China Human Rights and Rule of Law Update, 
16-17; ``System of Laws and Policies Protecting Women Take a Step 
Closer Toward Completion'' [Fu bao falu zhengce tixi jinyibu wanshan], 
Legal Daily (Online), 29 January 07; ``Regarding the Amended Shanghai 
Law on the Protection of Women's Rights and Interests Implementing 
Measures,'' People's Daily; Wang Zhuqiong, ``New Move To Stem Domestic 
Violence,'' China Daily (Online), 21 July 07.
    \13\ Committee on the Elimination of Discrimination Against Women, 
Concluding Comments of the Committee on the Elimination of 
Discrimination Against Women, Advanced Unedited Version, Thirty-sixth 
session, 7-25 August 06.
    \14\ PRC Marriage Law, enacted 10 September 80, amended 28 April 
01, art 3; PRC Law on the Protection of Women's Rights and Interests, 
art. 46; ``Same Domestic Violence Accusation, Different Results in 
Shanghai and Baotou Court Cases; Expert Calls for Unified Standard'' 
[Tongshi shou nuesha fu Shanghai Baotou pan butong zhuanjia: tongyi 
biaozhun], Legal Daily (Online), 30 March 06; Human Rights in China 
(Online), ``Implementation of the Convention of the Elimination of All 
Forms of Discrimination Against Women in the People's Republic of 
China, A Parallel NGO Report,'' June 2006.
    \15\ For example, with regards to domestic violence survivors 
bearing the burden in bringing complaints, see the PRC Marriage Law, 
arts. 43, 45.
    \16\ ``Domestic Violence in Spotlight,'' China Daily (Online), 2 
August 07; ``Survey of Young Female Migrant Workers Reveals 70 Percent 
Have Been Sexually Harassed'' [Hunan nianqing nuxing nongmingong 
diaocha 7 cheng dagongmei zaoguo xingsaorao], Xinhua (Online), 15 May 
06.
    \17\ CECC, 2003 Annual Report, 47-48.
    \18\ Ibid., 48.
    \19\ Committee on the Elimination of Discrimination Against Women, 
Concluding Comments of the Committee on the Elimination of 
Discrimination Against Women, 4.
    \20\ CECC, 2006 Annual Report, 99.
    \21\ CECC, 2004 Annual Report, 56.
    \22\ ``Women Contribute to over 40% GDP,'' China News, reprinted in 
All-China Women's Federation (Online), 17 May 07.
    \23\ Guo Aibing, ``More Women Fill Top Posts, but Still Wield 
Little Authority,'' South China Morning Post (Online), 16 May 07; 
``Women Contribute to over 40% GDP,'' China News; ``Minimum Hiring Rate 
for Women Employees Must Be 30%'' [Luyong gongwuyuan nuxingbili bude 
diyu 30%], China Women's News (Online), 15 January 07.
    \24\ ``Chengdu Imposes Gender Quota on Local Government's Leading 
Positions'' [Chengdu guiding quxian si da banxi zhishao ge you yi ming 
nu ganbu], Eastday Net (Online), 7 November 06; Standing Committee of 
Heilongjiang People's Congress, ``Law Guaranteeing Gender Ratio of 
Heilongjiang People's Congress, Implementing Women's Law, Appears'' 
[Renda nu daibiao bili tigao dao 30% funu quanyi baozhang fa shishi 
banfa chutai], 31 October 06; ``Funds for Women's Development Work are 
No Lower than 0.3 yuan Per Person'' [Funu gongzuo jingfei meiren mei 
nian bu diyu 0.3 yuan], China Women's News (Online), 31 October 06.
    \25\ CECC, 2005 Annual Report, 69-70.
    \26\ Specifically, women accounted for 27.8 percent of all reported 
HIV/AIDS cases in 2006, an increase from 19.4 percent in 2000. ``More 
than a Quarter of AIDS Patients in China are Women,'' Xinhua, reprinted 
in Women of China (Online), 5 June 07.
    \27\ ``Report: Unsafe Sex Major Cause of HIV Infection,'' China 
Daily (Online), 20 August 07.
    \28\ CECC, 2003 Annual Report, 49.
    \29\ ``China's Suicide Rate Among World's Highest,'' China Daily 
(Online), 11 September 07; Christopher Allen, ``Traditions Weigh on 
China's Women,'' BBC (Online), 20 June 06; World Health Organization, 
``Suicide Huge but Preventable Public Health Problem,'' 10 September 
04; Maureen Fan, ``In Rural China, a Bitter Way out,'' Washington Post 
(Online), 15 May 07.
    \30\ ``Domestic Violence is the Main Reason Chinese Rural Women 
Commit Suicide'' [Jiating baoli shi daozhi zhongguo nongcun funu zisha 
de zhuyin], Radio Free Asia (Online), 28 November 06; CECC, 2006 Annual 
Report, 99; Fan, ``In Rural China, a Bitter Way out.''
    \31\ Over the period from 1991 to 2004, ``national statistics 
show[ed] an overall decline in maternal mortality from 80 to 48.3 
deaths per 100,000 live births.'' There is a divide between urban and 
rural areas, however, as the maternal mortality rate in small and 
medium cities had declined to 15.3 deaths per 100,000 live births by 
2004, compared to 96 deaths per 100,000 in remote rural areas. The gap 
has widened since 1996. China Development Brief (Online), ``Drop in 
Maternal and Child Mortality Slow and Uneven,'' 18 January 07.
    \32\ Human Rights in China, ``Implementation of the Convention of 
the Elimination of All Forms of Discrimination Against Women in the 
People's Republic of China,'' 15.
    \33\ A 2005 report by China Children's Center reported 99.14 
percent enrollment rates for girls, and 99.16 percent enrollment rates 
for boys. ``Girls and Boys have Basically the Same Rate of Entry into 
School,'' Xinhua (Online), 9 December 06. See also, China Statistical 
Yearbook 2006, Figure 21-5 titled ``Number of New Students Enrollment 
by Level and Type of School.''
    \34\ ``China Still Has 100 Million Illiterate People; Of that, 70% 
are Women'' [Wuguo haiyou wenmang 1 yi duo qizhong nuxing yu qicheng], 
People's Daily (Online), 17 October 06; The State Council Women's 
Development Program, 2001-2010.
    \35\ ``Spring Bud Program Helps 2622 Girls Stay in School over 11 
Years in Ningxia'' [``Chunlei nainai'' jianglijuan: 11 nian zizhu 2622 
ming shixue nutong], Xinhua (Online), 14 November 06; ```Spring Bud 
Program' Helps 1,600,000 Girls Return to School'' [``Chunlei jihua'' 
bang 160 wan nutong chongfan xiaoyuan], China Women's News (Online), 18 
October 06.
    \36\ Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope.''
    \37\ Ibid.; ``Women Sue Village Committees for Denying Them Land 
Rights,'' CECC China Human Rights and Rule of Law Update, July 2006, 8.
    \38\ Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope.''
    \39\ Ibid.
    \40\ PRC Organic Law of Village Committees, enacted 4 November 98, 
art. 20. Article 20 states that ``no villagers charter of self-
government, rules and regulations for the village, villagers pledges or 
matters decided through discussions by a villagers assembly or by 
representatives of villagers may contravene the Constitution, laws, 
regulations, or State policies, or contain such contents as infringing 
upon villagers rights of the person, their democratic rights or lawful 
property rights.''
    \41\ Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope.''
    \42\ Ibid.
    \43\ Ibid.
    \44\ CECC Staff Interview; Xu Yushan, ``A Preliminary Analysis of 
the Relationship between the Women's Federation and Other Women's 
Organizations'' [Qianxi fulian yu qita funuzuzhi de guanxi], Collection 
of Women's Studies [Funu yanjiu luncong], No. 2, March 2004, 44-48.
    \45\ China Women's University established a legal center for women 
and children in September 2006 that offers free legal services 
primarily to women and children, but also to other ``vulnerable 
groups'' such as the elderly and the disabled. Legal services include 
counseling over the telephone, counseling in person, drafting documents 
on behalf of someone else, mediation, and litigation. ``China Women's 
University Establishes Legal Center for Women and Children'' [Zhonghua 
nuzi xueyuan chengli funu ertong falu fuwu zhongxin], China Women's 
News, reprinted in Women Watch--China (Online), 26 September 06. In 
September 2006, the Beijing Lawyers Association Marriage and Family 
Special Committee held a seminar that focused on legal protections of 
women's land rights, seminars are held to brainstorm questions and 
raise suggestions to the Legislation Department, regarding the land 
rights and interests of women, especially married-out women, divorced 
women, and widows. ``Seminar on Legal Protection of Women's Land 
Rights'' [Tudi yong yi quan falu shiwu wenti yantaohui], Women Watch--
China (Online), 1 October 06.
    \46\ CECC, 2006 Annual Report, 98.
    \47\ Ibid., 98.
    \48\ CECC, 2005 Annual Report, 72.
    \49\ ``Chinese Villages Have Roughly 47 Million `Left Behind 
Women''' [Zhongguo nongcun ``liushou funu'' yue 4700 wan], Radio Free 
Asia (Online), 8 November 06.
    \50\ ``Older Pregnant Woman Unexpectedly Dismissed by Company'' 
[Gaoling bailing huaiyun jing bei gongsi jiegu], New Express, reprinted 
in Women Watch--China (Online), 3 November 06.
    \51\ The survey data was collected from 6,595 questionnaires handed 
out in 416 villages and four cities. ``Female Migrants Suffering at 
Work,'' China Daily, 30 November 06 (Open Source Center, 30 November 
06).
    \52\ Liu Yun and Yao Jian, ``Legal Aid for Female Migrant 
Workers,'' China Women's News, reprinted in Women Watch--China 
(Online), 21 June 07.
    \53\ Ibid.
    \54\ ``Over 60 Million Female Workers Have Maternity Insurance,'' 
Women of China (Online), 21 June 07. The Yunnan Provincial Health 
Bureau launched a project to raise public awareness of HIV/AIDS, with 
the aim of educating 80 percent of its female population. ``Project 
Launched To Protect Women from AIDS,'' China News (Online), 13 July 07. 
Some local governments have established programs to provide loans and 
training to women who have lost their jobs. Liu Yun and Yao Jian, 
``Legal Aid for Female Migrant Workers.''
    \55\ ``Why Can't Women Retire at the Same Age as Men'' [Nuren 
pingsha wuquan yu nanren tongling tuixiu], Southern Weekend (Online), 
13 October 05.
    \56\ ``Why Can't Women Retire at the Same Age as Men,'' Southern 
Weekend; CECC, 2005 Annual Report, 67.
    \57\ ``Hubei Transportation Company: Female Attendants Whose Weight 
Exceeds 60 Kilograms Must Step Down'' [Nu chengwuyuan tizhong chaoguo 
60 gongjin jiang xiagang], Radio Free Asia (Online), 7 October 06.
    \58\ China Gender Equality and Women's Development Report [Zhongguo 
xingbie pingdeng yu funu fazhan baogao], ed. Tan Lin (Beijing: Social 
Sciences Academic Press, 2006), reprinted in China Net (Online).

    Notes to Section II--Population Planning
    \1\ CECC, 2006 Annual Report, 20 September 06, 109.
    \2\ The population increased by roughly 300 million from 1980 to 
2005. Statistic cited in Tyrene White, China's Longest Campaign: Birth 
Planning in the People's Republic, 1949-2005 (Ithaca: Cornell UP, 
2006), 263. For official Chinese government information on its 
population planning policies see State Council Information Office, 
White Paper on Population in China, 19 December 00. For information on 
the number of births prevented, see paragraph 7 of the report.
    \3\ Quoted in White, China's Longest Campaign, 238.
    \4\ Central Committee of the CCP and State Council Decision 
Regarding the Comprehensive Strengthening of Population and Family 
Planning Work To Resolve the Population Problem as a Whole [Zhonggong 
zhongyang guowuyuan guanyu quanmian jiaqiang renkou he jihua shengyu 
gongzuo tongchou jiejue renkou wenti de jueding], issued 17 December 
06.
    \5\ Guan Xiaofeng, ``Official: Family Planning Policy To Stay,'' 
China Daily, reprinted on the National Population and Family Planning 
Commission of China Web site, 4 July 07.
    \6\ The circumstances under which women may bear a second child are 
governed by provincial-level regulations. Provincial regulations have 
allowed additional children for ethnic minorities and some rural Han 
Chinese residents and permitted second births where the first child is 
a girl, is disabled, or, in some cases, where both parents are only 
children themselves, among other circumstances. For basic codification 
of the one-child policy, see Population and Family Planning Law of the 
People's Republic of China (Population and Family Planning Law), 
adopted 29 December 01, art. 18. For examples of restrictions in local 
regulations, see, e.g., Henan Province Population and Family Planning 
Regulation [Henansheng renkou yu jihua shengyu tiaoli], adopted 30 
November 02, art. 15, 17, 18; Xinjiang Uighur Autonomous Region (XUAR) 
Regulation on Population and Family Planning [Xinjiang weiwu'er zizhiqu 
renkou yu jihua shengyu tiaoli], art. 15. Article 15 of the Henan 
province regulation ``advocates that a couple give birth to one child, 
strictly controls the birth of a second child, and prohibits the birth 
of a third child.'' Articles 17 and 18 stipulate conditions under which 
couples may apply for approval to have a second child, such as where a 
first child carries a genetic disability. Article 15 of the XUAR 
regulation allows urban Han Chinese couples to have one child, urban 
ethnic minority couples and rural Han Chinese couples to have two, and 
rural ethnic minority couples to have three. See also Gu Baochang et 
al., ``China's Local and National Fertility Policies at the End of the 
Twentieth Century,'' Population and Development Review 33(1), March 
2007, 132-136. Government officials have attempted to downplay controls 
by stating that a strict one-child rule affects less than 36 percent of 
the population. See, e.g., ``Many Free To Have More Than One Child,'' 
Xinhua (Online), 11 July 07.
    \7\ Population and Family Planning Law, art. 41. Each provincial-
level government determines its own fees. Measures for Collection of 
Social Compensation Fees [Shehui fuyangfei zhengshou guanli banfa], 
issued 2 September 02, art. 3, 7. In Beijing, parents who have children 
in violation of the local regulation, including unmarried women who are 
in violation by giving birth to a child, face fines that range from 3 
to 10 times the area's average income. Beijing Measures for Managing 
the Collection of Social Compensation Fees [Beijing shi shehui 
fuyangfei zhengshou guanli banfa], adopted 5 November 02, art. 5. Fees 
are lower in Shandong province, where the fine is set at 30 percent of 
local incomes. Shandong Province Measures for Managing the Collection 
of Birth Control Social Compensation Fees [Shandongsheng jihua shengyu 
shehui fuyangfei zhengshou guanli banfa], issued 1998, art. 4.
    \8\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China 
(includes Tibet, Hong Kong, and Macau) (Online), 6 March 07.
    \9\ Under Article 41 of the Population and Family Planning Law, 
where a citizen does not pay the social compensation fee, ``the 
administrative department for family planning that makes the decision 
on collection of the fees shall, in accordance with law, apply to the 
People's Court for enforcement.'' Population and Family Planning Law, 
art. 41. U.S. Department of State, Country Reports on Human Rights 
Practices--2006; CECC Staff Interview.
    \10\ See, e.g., ``Family Planning Faces Challenge from New Rich,'' 
Xinhua, reprinted in China Daily (Online), 14 December 05. Officials 
have said the government will take measures to discourage wealthier 
citizens from violating restrictions. Alice Yan and Kristine Kwok, 
``One-Child Crackdown Looms for Elite; Officials Consider Stiffer 
Penalties for Rich and Famous Who Flout Family Policy,'' South China 
Morning Post (Online), 1 March 07.
    \11\ ``2,000 Officials Breach `One-Child' Policy in Hunan,'' China 
Daily, reprinted on China Elections and Governance Web site, 9 July 07. 
The Hunan government amended local regulations on population planning 
in September to increase fines for violating the regulations. ``Chinese 
Province Raises Fines on Wealthy Flouters of Family Planning Laws,'' 
Xinhua, 29 September 07 (Open Source Center, 29 September 07).
    \12\ ``Chinese Officials Breaching One-Child Policy Denied 
Promotion,'' Xinhua, 14 September 07 (Open Source Center, 14 September 
07).
    \13\ See, e.g., ``State Population and Family Planning Commission 
Indicates `Encouraging and Rewarding Fewer Births' To Be Carried Out at 
Least 20-30 Years'' [Guojia renkou jishengwei biaoshi ``jiangli 
shaosheng'' zhishao zhixing er san shinian], People's Daily (Online), 
19 October 06; ``Encouragement and Reward Assistance System To Enter 
Implementation Phase'' [Jiangli fuzhu zhidu jiang jinru shishi 
jieduan], People's Daily (Online), 16 October 06. Yang Jie, 
``Autonomous Region Launches Important Reform on General College 
Entrance Examination,'' Xinjiang Daily, 31 May 07 (Open Source Center, 
12 June 07).
    \14\ National Population and Family Planning Commission Circular on 
Printing and Distributing Action Plan for Special Rectification of 
Unlawful Births in Cities and Towns [Guojia renkou jishengwei guanyu 
yinfa chengzhen weifa shengyu zhuanxiang zhili xingdong fang'an de 
tongzhi], issued 24 May 07. For an English translation, see ``China: 
Action Plan To Rectify Unlawful Births in Urban Areas,'' Open Source 
Center, 16 June 07.
    \15\ Convention on the Elimination of All Forms of Discrimination 
Against Women, adopted and opened for signature, ratification, and 
accession by General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 2, 3, 16(1)(e).
    \16\ Convention on the Rights of the Child, adopted and opened for 
signature, ratification, and accession by General Assembly resolution 
44/25 of 20 November 89, entry into force 2 September 90, art. 2, 3, 4, 
6, 26. China has submitted a reservation to Article 6: ``[T]he People's 
Republic of China shall fulfil its obligations provided by article 6 of 
the Convention under the prerequisite that the Convention accords with 
the provisions of article 25 concerning family planning of the 
Constitution of the People's Republic of China and in conformity with 
the provisions of article 2 of the Law of Minor Children of the 
People's Republic of China.'' Office of the UN High Commissioner for 
Human Rights, ``Declarations and reservations to the Convention on the 
Rights of the Child'' (Online).
    \17\ International Covenant on Economic, Social, and Cultural 
Rights (ICESCR) adopted by General Assembly resolution 2200 A (XXI) of 
16 December 66, entry into force 3 January 76, art. 10(3).
    \18\ Population and Family Planning Law, art. 39.
    \19\ See, e.g., ``7,000 Forcibly Sterilised in Eastern China,'' 
South China Morning Post (Online), 12 September 05; Joseph Kahn, 
``Advocate for China's Weak Crosses the Powerful,'' New York Times, 20 
July 06. For Chinese reporting on events in Linyi, see, e.g., 
``Officials Fired for Forced Abortions,'' Xinhua (Online), 21 September 
05; ``PRC Official Confirms Irregularities in Shandong Family Planning 
Management,'' Xinhua, 19 September 05 (Open Source Center, 26 September 
05).
    \20\ See the CECC Political Prisoner Database for more information 
on Chen Guangcheng.
    \21\ See, e.g., ``Guangxi Town `Tense' After One-Child Protest Put 
Down,'' South China Morning Post (Online), 22 May 07; Joseph Kahn, 
``Birth Control Measures Prompt Riots in China,'' New York Times 
(Online), 21 May 07; ``Government Uses Iron Fist To Force Sterilization 
of Female Student'' [Zhengfu tiewan bi nusheng jueyu], Ming Pao 
(Online), 22 May 07.
    \22\ See, e.g., Chow Chung-yan, ``One-Child Policy Riots Flare Up--
Anger Over Birth-Control Fines Spreads across Guangxi,'' South China 
Morning Post (Online), 31 May 07; ``10,000 Riot in Guangxi,'' Tung Fang 
Jih Pao, 21 May 07 (Open Source Center, 21 May 07); ``Guangxi Family 
Planning Protests Erupt Again in Rong County,'' Radio Free Asia 
(Online), 29 May 07. In July, state-controlled media reported that two 
men received prisons sentences of one and two years for their 
involvement in the protests. ``China Jails Two Men for Birth-Control 
Riots,'' Reuters (Online), 23 July 07.
    \23\ ``Full-Term Abortion Lawsuit a First for China,'' Caijing 
(Online), 25 July 07.
    \24\ The pressures created by population planning policies, 
combined with entrenched preferences for male children and under-
reporting of female births, have factored into estimates of China's 
unbalanced sex ratio. See White, China's Longest Campaign, 203-207, for 
more information on sex ratios in China and in other countries with 
traditional preferences for boys.
    \25\ ``New Policy Will Offer Cash Instead of Kids,'' China Daily 
(Online), 16 October 06.
    \26\ Decision Regarding the Comprehensive Strengthening of 
Population and Family Planning Work To Resolve the Population Problem 
as a Whole. Article 35 of the 2002 Population and Family Planning Law 
prohibits, but does not penalize, sex-selective abortion. Population 
and Family Planning Law, art. 35.
    \27\ Statistics cited in U.S. Department of State, ``Country 
Reports on Human Rights Practices--2006. There is some variation in 
reporting on the sex ratio. See the CECC, 2006 Annual Report, 230 
(footnote 34) for an overview of estimates during and before 2006.
    \28\ ``Abortion Law Amendment To Be Abolished,'' China Daily, 
reprinted in Xinhua, 26 June 06.
    \29\ Henan Province Regulation on Prohibiting Non-Medically 
Necessary Fetal Sex Determination and Sex-Selective Abortion 
[Henansheng jinzhi feiyixue xuyao tai'er xingbie jianding he xuenze 
xingbie rengong zhongzhi renshen tiaoli], issued 29 September 06. The 
regulation only allows sex determination for cases in which medical 
personnel suspect the existence of a congenital disease. For women who 
have abided by all population planning requirements and are more than 
14 weeks pregnant, abortion is permitted only when a serious hereditary 
disease or severe birth defect is detected; if continuation of 
gestation will damage the health or life of the pregnant woman; or if 
the pregnant woman is divorced or widowed. The regulation does not 
alter the legal framework for abortion prior to 14 weeks of gestation 
or for women whose pregnancy violates population planning requirements. 
The regulation also prohibits the retail sale of abortion-inducing 
drugs, limits manufacturers' ability to distribute such 
pharmaceuticals, and requires a physician to administer these drugs. 
Penalties include fines of up to 2,000 yuan (US$260) for women who have 
abortions in violation of the regulation's parameters, and fines of up 
to 30,000 yuan (US$3,870) and possible revocation of licenses for 
health organizations that do not comply with the new regulation.
    \30\ For an overview of such measures, known as a ``1.5-children 
policy,'' see Gu, ``China's Local and National Fertility Policies at 
the End of the Twentieth Century,'' 133, 138.
    \31\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 12 June 07.
    \32\ ``Xinjiang Focuses on Reducing Births in Minority Areas To 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 15-16; ``Xinjiang Reports High Rate of Population 
Increase,'' CECC China Human Rights and Rule of Law Update, March 2006, 
16-17. A 1953 government census found that Han Chinese constituted 6 
percent of the XUAR's population of 4.87 million, while Uighurs made up 
75 percent. The 2000 census listed the Han population at 40.57 percent 
and Uighurs at 45.21 percent of a total population of 18.46 million. 
Demographer Stanley Toops has noted that Han migration since the 1950s 
is responsible for the ``bulk'' of the XUAR's high population growth in 
the past half century. Stanley Toops, ``Demographics and Development in 
Xinjiang after 1949,''East-West Center Washington Working Papers No. 1, 
May 04, 1.

    Notes to Section II--Health
    \1\ Beijing Municipality Regulations on Mental Health [Beijing shi 
jingshen weisheng tiaoli], issued 8 December 06. According to a 2002 
Human Rights Watch report, while an international delegation visited 
Beijing in 1993 as part of China's bid for the 2000 Olympics, 
individuals with mental illnesses were removed from the streets and 
housed in temporary holding centers. Human Rights Watch (Online), 
``Dangerous Minds, Political Psychiatry in China Today and its Origins 
in the Mao Era,'' August 2002.
    \2\ Beijing Municipality Regulations on Mental Health, art. 31.
    \3\ G.A. Res. 119, U.N. GAOR, 46th Sess., Supp. No. 49, Annex, at 
188-192, U.N. Doc. A/46/49 (1991). The General Assembly approved this 
resolution without a vote on December 17, 1991. The resolution is not 
binding and it is unclear whether China supported it. Beijing's mental 
health regulations, however, include a number of provisions that are 
similar to those found in the Principles, suggesting that officials 
modeled their provisions in part on the Principles.
    \4\ Beijing Municipality Regulations on Mental Health, arts. 27, 
32.
    \5\ ``Progress in AIDS Battle despite Harassment,'' Reuters, 
reprinted in South China Morning Post (Online), 18 July 07.
    \6\ Ibid.
    \7\ The Center for Strategic and International Studies, ``Averting 
a Full-Blown HIV/AIDS Epidemic in China: A Report of the CSIS HIV/AIDS 
Delegation in China, 13-17 January 2003,'' February 2003, 2; United 
Nations Theme Group of HIV/AIDS in China, ``HIV/AIDS: China's Titanic 
Peril-2001 Update of the AIDS Situation and Needs Assessment Report,'' 
June 2002, 7.
    \8\ The Center for Strategic and International Studies, 
``Demography of HIV/AIDS in China: A Report of the Task Force on HIV/
AIDS,'' July 2007, 10.
    \9\ ``Progress in AIDS Battle despite Harassment,'' Reuters.
    \10\ ``China reports leap in new HIV/AIDS cases,'' Reuters 
(Online), 9 September 07.
    \11\ ``New Estimate in China Finds Fewer AIDS Cases,'' New York 
Times (Online), 26 January 06.
    \12\ ``Progress in AIDS Battle despite Harassment,'' Reuters; 
``UNAIDS Chief Sees Signs of Progress in China,'' Reuters, reprinted in 
Yahoo! (Online), 17 July 07.
    \13\ Evelyn Iritani, ``China's AIDS Battle Goes Corporate,'' Los 
Angeles Times (Online), 3 March 07.
    \14\ Ibid.
    \15\ Ibid.
    \16\ Ben Blanchard, ``China Not Investing Enough To Fight AIDS: 
Experts,'' Reuters, 5 April 07. As Thomas Cai, founder of AIDS Care 
China, notes: ``Initial progress was made in Beijing because people in 
the ministries were working with U.N. people and the international 
community. When you get down to the lower level, people still have a 
different mind-set.'' Iritani, ``China's AIDS Battle Goes Corporate.''
    \17\ ``Hundreds of Police Storm `AIDS Village' in China, Arrest 13 
Farmers,'' Agence France-Presse (Online), 3 July 03.
    \18\ Chan Siu-sin, ``Four Residents of Henan AIDS Village 
Obstructed from Petitioning Beijing,'' South China Morning Post 
(Online), 4 July 04.
    \19\ Human Rights Watch, Restrictions on AIDS Activists in China, 
June 2005, 19; International Federation for Human Rights, Alternative 
Report to the Committee on Economic, Social and Cultural Rights: China: 
`At a Critical Stage,' Violations of the Right to Health in the Context 
of the Fight against AIDS, April 2005.
    \20\ ``AIDS Activist Resigns from Civil Society Organization, Cites 
Government Pressure,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 7-8; ``Progress in AIDS Battle despite Harassment,'' 
Reuters.
    \21\ ``Beijing PSB Officials Hold AIDS Activist Wan Yanhai, Cancel 
AIDS Conference,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 8-9.
    \22\ Jim Yardley, ``Detained AIDS Doctor Allowed To Visit U.S. 
Later, China Says,'' New York Times (Online), 17 February 07.
    \23\ Ibid.
    \24\ Minnie Chan, ``Blood Centre Boss Fired, Six Jailed over 
Illegal Sales,'' South China Morning Post (Online), 11 July 07.
    \25\ Shan Juan, ``Blood Collections To Be Videotaped,'' China Daily 
(Online), 11 July 07.
    \26\ Dune Lawrence, ``China's Lack of HIV/AIDS Awareness Undermines 
Control Program,'' Bloomberg (Online), 9 April 07. In addition, an 
UNAIDS report released in March 2006 found that China was only half way 
to meeting its goal under the UN's ``3 by 5'' initiative of providing 
30,000 HIV/AIDS carriers access to anti-HIV/AIDS drugs by the end of 
2005. World Health Organization and UNAIDS, ``Progress on Global Access 
to HIV Antiretroviral Therapy: A Report on 3 by 5 and Beyond,'' 28 
March 06, 72; CECC, 2006 Annual Report, 20 September 06, 111.
    \27\ ``Number of Tibetans with HIV/AIDS Rising'' [Xizang HIV/AIDS 
renshu shangsheng], Radio Free Asia (Online), 17 June 07; Bill 
Savadove, ``140,000 Orphaned by AIDS, Says UNICEF,'' South China 
Morning Post (Online), 9 July 07.
    \28\ Iritani, ``China's AIDS Battle Goes Corporate.''
    \29\ Lawrence, ``China's Lack of HIV/AIDS Awareness Undermines 
Control Program;'' ``Discrimination against HIV Patients Still Rife,'' 
Xinhua, reprinted in China.org (Online), 29 November 06.
    \30\ ``5-Year-old AIDS Patient Denied Surgery by Guangdong 
Hospitals'' [Aizi nantong qiuyi zaoju] Southern Metropolitan Daily 
(Online), 25 June 07; Chinese Human Rights Defenders (Online), 
``Minquan County AIDS Patients Encounter Unfair Treatment at Police 
Station'' [Minquan aizibing ren zaodao paichusuo de bugong daiyu], 5 
July 07.
    \31\ ``Doctors Not Up to Scratch on Hepatitis,'' China Daily 
(Online), 29 September 05; Bonny Ling and Wing Lam, ``Hepatitis B: A 
Catalyst for Anti-Discrimination Reforms?,'' 2 China Rights Forum 67, 
68 (2007).
    \32\ Ministry of Health (Online), ``Ministry of Health Publishes 
`2006-2010 Plan on Hepatitis B Prevention and Control''' [``2006-2010 
nian quanguo yi xing bingduxing ganyan fangzhi guihua'' fabu], 13 
February 06.
    \33\ CECC, 2004 Annual Report, 5 October 04, 65.
    \34\ ``Law To Protect HB Virus Carriers,'' China Daily (Online), 24 
August 04.
    \35\ ``Plaintiff Wins Nominally in the First Hepatitis B 
Discrimination Lawsuit'' [`Yigan qishi diyian' yuangao mingyi shang 
huosheng], Beijing Youth Daily (Online), 3 April 04.
    \36\ PRC Law on the Prevention and Control of Infectious Diseases, 
enacted 29 February 89, amended 28 August 04; CECC, 2004 Annual Report, 
61.
    \37\ Zhang Feng, ``HBV Victims Face Improved Job Chances,'' China 
Daily (Online), 19 January 05; ``Public Opinion Defeats HBV 
Discrimination,'' China Internet Information Center (Online), 23 
September 04.
    \38\ Vivien Cui, ``Hepatitis B Carriers Forced To Suffer in 
Silence,'' South China Morning Post (Online), 5 September 06; 
``Xinjiang Hepatitis Students Fight School Ban,'' Radio Free Asia 
(Online), 20 November 06.
    \39\ ``Doctors Not Up to Scratch on Hepatitis,'' China Daily.
    \40\ China Development Brief (Online), ``Hepatitis Foundation 
Learns from AIDS Activism,'' 16 February 06.
    \41\ Ibid.; ``Xinjiang First Hepatitis B Discrimination Case 
Docketed, Incoming Student Sues Xinjiang Agricultural University 
[Xinjiang shou li yigan qishi an lian xiuxue xinsheng zhuanggao nongye 
daxue],'' City Consumer Morning News (Online), 29 January 06.
    \42\ China Development Brief (Online), ``Hepatitis B Stigma 
Provokes Outcry in Xinjiang,'' 30 October 06; ``Xinjiang First 
Hepatitis B Discrimination Case Docketed, Incoming Student Sues 
Xinjiang Agricultural University,'' City Consumer Morning News.
    \43\ ``December 16, Friday, Plaintiff in First Hepatitis B 
Discrimination Case in Xinjiang Successfully Resumes Student Status'' 
[12 yue 16 ri, xingqiwu, xinjiang yigan qishi di yi dan dangshiren liyi 
shunli bu ban qiquan xueji], Boxun (Online), 18 December 06.
    \44\ China Development Brief, ``Hepatitis B Stigma Provokes Outcry 
in Xinjiang;'' Mure Dickie, ``Parents in Xinjiang Drop Discrimination 
Suit,'' Financial Times (Online), 18 September 07; ``Xinjiang Hepatitis 
Students Fight School Ban,'' Radio Free Asia; ``7 Hepatitis B-Positive 
Chinese Students Sue,'' Associated Press, reprinted in China Daily 
(Online), 23 October 07.
    \45\ Ibid.
    \46\ China Development Brief, ``Hepatitis B Stigma Provokes Outcry 
in Xinjiang;'' ``Xinjiang Hepatitis Students Fight School Ban,'' Radio 
Free Asia.
    \47\ Ibid.
    \48\ Ibid.; Mure Dickie, ``Parents in Xinjiang Drop Discrimination 
Suit;'' ``7 Hepatitis B-Positive Chinese Students Sue,'' Associated 
Press.
    \49\ ``Xinjiang Hepatitis Students Fight School Ban,'' Radio Free 
Asia.
    \50\ ``Survey Shows Half of Chinese Discriminate against People 
with HIV/AIDS'' [Mintiao xianshi duoban zhongguoren paichi 
aizibingren], Voice of America (Online), 14 May 07.
    \51\ Xin Dingding, ``Law To Protect Hepatitis B Carriers' Rights,'' 
China Daily (Online), 14 July 07.
    \52\ Mure Dickie, ``Nokia China Hit with Discrimination Suit,'' 
Financial Times (Online), 13 March 07.
    \53\ ``Nokia Hepatitis B Discrimination Case Will Open in Court on 
August 9, People are Welcome To Attend'' [Nokia yigan qishi an jiang yu 
8 yue 9 ri kaiting, huanying canjia pangting, caifang], Boxun (Online), 
3 August 07; ``Nokia China Faces Lawsuit over Rejection of Hepatitis-B 
Carrier,'' Helsingin Sanomat (Online), 16 August 07.
    \54\ Ibid.; ``August 15 Dongguan Nokia Employment Discrimination 
Case Outcome and Situation Report from the Plaintiff's Lawyer'' [8 yue 
15 ri dongguan nuojiya jiuye qishi anjian shenpan jieguo yiji yu wofang 
lushi jiaoliu qingkuang huibao], Gandan Xiangzhao (Online), 15 August 
07.
    \55\ CECC Staff Search. See also, ``August 15 Dongguan Nokia 
Employment Discrimination Case Outcome and Situation Report from the 
Plaintiff's Lawyer,'' Gandan Xiangzhao.
    \56\ Chinese Human Rights Defenders (Online), ``Government Issues 
New Regulations Protecting the Employment Rights of Hepatitis B 
Carriers'' [Guanfang chuxin gui yaoqiu weihu yigan biaomian kangyuan 
xiedaizhe jiuye quanli], 31 May 07; Bonny Ling and Wing Lam, 
``Hepatitis B: A Catalyst for Anti-Discrimination Reforms?,'' 2 China 
Rights Forum 67, 72-73 (2007).
    \57\ ``New Law Allows Job Seekers To Litigate Against 
Discrimination,'' Xinhua (Online), 30 August 07; Xin Dingding, ``Law To 
Protect Hepatitis B Carriers' Rights.''
    \58\ PRC Employment Promotion Law, enacted 30 August 07, arts. 30, 
62; ``A Call for NGO Colleagues to Pay Attention to the Employment 
Promotion Law Anti-Discrimination Provision that Leaves out 
Discrimination against Carriers of Hepatitis B and HIV'' [Huyu NGO 
tongren guanzhu ``jiuye cujin fa'' fei qishi tiaokuan yilou yigan he 
aizi qishi wenti], Boxun (Online), 2 March 07.
    \59\ ``Legislation for Anti-Discrimination in Employment Urgently 
Needed'' [Fan yigan jiuye qishi ying lifa], China Youth Daily (Online), 
5 February 07; Bonny Ling and Wing Lam, ``Hepatitis B: A Catalyst for 
Anti-Discrimination Reforms?,'' 2 China Rights Forum 67, 71 (2007).
    \60\ Xin Dingding, ``Law To Protect Hepatitis B Carriers' Rights.''
    \61\ ``SARS Whistle-Blower Barred from US Prize Trip,'' Agence 
France-Presse, reprinted in South China Morning Post (Online), 12 July 
07.
    \62\ Emergency Response Regulations for Major Epidemics of Animal 
Diseases [Zhongda dongwu yiqing yingji tiaoli], issued 18 November 05, 
Ch. 3, art. 17.
    \63\ Human Rights in China (Online), ``State Secrets: China's Legal 
Labyrinth,'' June 2007, 180.
    \64\ Regulation of the People's Republic of China on the Public 
Disclosure of Government Information [Zhonghua renmin gongheguo zhengfu 
xinxi gongkai tiaoli], issued 5 April 07, art. 14.
    \65\ Cao Haidong and Fu Jianfeng, ``20 Years of Health Care Reform 
in China'' [Zhongguo yigai 20 nian], Southern Daily (Online), 5 August 
05; Ofra Anson and Shifang Sun, Health Care in Rural China (Ashgate, 
Aldershot, Hants, 2005), 15-17.
    \66\ Yuanli Liu, ``Development of the Rural Health Insurance System 
in China,'' Health Policy and Planning, 19(3), 2004, 160.
    \67\ ``Residents of Chinese Cities Live on Average 12 Years Longer 
than Those in Rural Areas--What Is the Cause?'' [Zhongguo dachengshi 
renjun shouming bi nongcun gao 12 nian--shi he yuanyin?], Xinhua 
(Online), 17 November 05.
    \68\ ``Facts and Figures: Widening Gap between China's Urban, Rural 
Areas,'' People's Daily (Online), 3 March 06.
    \69\ ``Residents of Chinese Cities Live on Average 12 Years Longer 
than Those in Rural Areas-What Is the Cause?,'' Xinhua.
    \70\ ``National Healthcare Needs Gradual Growth,'' China Daily 
(Online), 26 March 07.
    \71\ ``China will Augment Basic Urban Healthcare Insurance,'' 
Xinhua, reprinted in China.org (Online), 25 July 07.
    \72\ ``Premier Wen Sees How Urban Medicare Works,'' Xinhua, 
reprinted in China Daily (Online), 22 July 07.
    \73\ David Blumenthal and William Hsiao, ``Privatization and its 
Discontents--The Evolving Chinese Health Care System,'' 353 New England 
Journal of Medicine 1165, 1169 (2005); CECC, 2006 Annual Report, 109.
    \74\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua, reprinted in China.org (Online), 11 September 06; ``National 
Healthcare Needs Gradual Growth,'' China Daily.
    \75\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua; ``Healthcare Plans in Pipeline,'' China Daily, reprinted in 
China.org (Online), 12 March 07.
    \76\ Duncan Hewitt, ``China Rural Health Worries,'' BBC News 
(Online), 4 July 02.
    \77\ ``China Rebuilding Rural Cooperative Medicare System,'' 
Xinhua, reprinted in Beijing Review (Online), 21 February 07.
    \78\ ``Healthcare Plans in Pipeline,'' China Daily; ``Gov't under 
Pressure To Make Rural Healthcare System Work,'' Xinhua, reprinted in 
China.org (Online), 21 April 07.
    \79\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua; ``Rural Cooperative Healthcare Network Planned [sic],'' Xinhua, 
reprinted in China.org (Online), 8 June 07.
    \80\ ``Half of All Farmers Do Not Seek Care for Illness'' [Zhongguo 
nongmin yiban kanbuqi bing], Beijing News (Online), 6 November 04; 
``Half of All Children Who Die of Illness in the Countryside Had Not 
Received Medical Treatment'' [Wo guo yin bing siwang de nongcun ertong 
reng you yibanwei dedao yiliao], People's Daily (Online), 17 August 05; 
CECC, 2005 Annual Report, 11 October 05, 72.
    \81\ ``Gov't under Pressure To Make Rural Healthcare System Work,'' 
Xinhua.
    \82\ ``China Rebuilding Rural Cooperative Medicare System,'' 
Xinhua.
    \83\ ``Survey: Medical Expenses Account for 11.8% of Family's 
Annual Spending,'' Yahoo!, translated on the Web site of Women of 
China, 26 December 06.
    \84\ ``Doctors Face Growing Risk of Violent Medical Disputes,'' 
Xinhua, reprinted in China.org (Online), 18 April 07.
    \85\ Ibid.
    \86\ ``Rural Cooperative Healthcare Network Planned [sic],'' 
Xinhua.
    \87\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua.

    Notes to Section II--Human Trafficking
    \1\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 12 June 07, 
80.
    \2\ PRC Protection of Minors Law, enacted 4 September 91, amended 
29 December 06.
    \3\ Ibid., art. 41.
    \4\ ``More Forced into Labor, Prostitution,'' China Daily (Online), 
27 July 07.
    \5\ National Bureau of Statistics, China Statistical Yearbook 2006, 
Table 23-11; ``Ministry of Public Security Strengthens the Combating of 
Crimes of Trafficking in Women and Children'' [Zhongguo gongan jiguan 
jiada daji guaimai funu ertong fanzui lidu], Xinhua (Online), 26 July 
07.
    \6\ U.S. Department of State, Trafficking in Persons Report--China, 
80.
    \7\ ``More Forced into Labor, Prostitution,'' China Daily.
    \8\ Experts believe that Chinese law only considers those under the 
age of 14 to be ``minors'' and automatic victims of trafficking, with 
no need for personnel to have them examined for signs of coercion or 
the use of force. CECC Staff Correspondence; ``Ministry of Public 
Security Official: Human Trafficking for the Purposes of Forced Labor 
and Sexual Exploitation Has Increased'' [Gonganbu guanyuan: yi boxue he 
seqing wei mudi de renkou guaimai shangsheng], China Daily, reprinted 
in China Economic Net (Online), 27 July 07. See, for example, the PRC 
Criminal Law, enacted 1 July 79, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, art. 240.
    \9\ UNICEF (Online), ``China: Trafficking of Children and Women,'' 
last visited 4 October 07; ``China To Issue An Anti-Trafficking Plan'' 
[Zhongguo jiang zhiding guojia fan renkou guaimai xingdong jihua], 
Xinhua (Online), 12 July 06.
    \10\ U.S. Department of State, Trafficking in Persons Report--
China, 80.
    \11\ Ibid.
    \12\ CECC Staff Correspondence.
    \13\ UNICEF, ``China: Trafficking of Children and Women;'' ``China 
To Issue An Anti-Trafficking Plan,'' Xinhua; ``Hunan Court Sentences 
Infant Traffickers; New Orphanage Standards Due Soon,'' CECC China 
Human Rights and Rule of Law Update, April 2006, 3-4; ``Social Service 
Organizations Involved in Two Child Trafficking Cases,'' CECC China 
Human Rights and Rule of Law Update, January 2006, 11; Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State, Country 
Reports on Human Rights Practices--2006, China (includes Tibet, Hong 
Kong, and Macau), 6 March 07, sec. 5.
    \14\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China, sec. 5.
    \15\ ``Social Service Organizations Involved in Two Child 
Trafficking Cases,'' CECC China Human Rights and Rule of Law Update, 
11; ``Hunan Court Sentences Infant Traffickers; New Orphanage Standards 
Due Soon,'' CECC China Human Rights and Rule of Law Update, 3-4; Cindy 
Sui, ``Baby Trafficking in PRC's Rural Areas `Widespread,''' Agence 
France-Presse, 5 February 05 (Open Source Center, 10 February 05).
    \16\ U.S. Department of State, Trafficking in Persons Report--
China, 80.
    \17\ United Nations Office on Drugs and Crime (Online), ``The 
United Nations Convention Against Transnational Organized Crime and Its 
Protocols,'' last viewed 4 October 07; UN Convention Against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 2000, entry into force 29 September 03; Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children (commonly known as Palermo Protocol), adopted by 
General Assembly resolution 55/25 of 15 November 2000, entry into force 
on 25 December 03.
    \18\ Convention on the Elimination of All Forms of Discrimination 
Against Women, adopted by General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; Convention on the 
Rights of the Child, adopted by the General Assembly resolution 44/25 
of 20 November 1989, entry into force 2 September 90, art. 35; Human 
Trafficking.org (Online), ``Government of China's Plan of Action To 
Prevent, Protect, Prosecute and Reintegrate,'' last viewed 4 October 
07.
    \19\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, amended 28 August 05, art. 39.
    \20\ ``China To Issue a National Anti-Trafficking Plan of Action,'' 
Xinhua (Online), 12 July 06; ``Panel Set To Target Human Trafficking,'' 
China Daily (Online), 4 September 07.
    \21\ For example, the Ministry of Justice launched a three month 
campaign in 2000 that reportedly resulted in the rescue of some 10,000 
girls. CECC, 2003 Annual Report, 2 October 03, 53. From 2001 to 2003, 
the Ministry of Public Security initiated a series of ``Strike Hard'' 
campaigns that reportedly solved 20,360 cases involving 42,215 victims. 
CECC, 2004 Annual Report, 5 October 04, 137, endnote 527.
    \22\ Murray Scot Tanner, ``State Coercion and the Balance of Awe: 
The 1983-1986 `Stern Blows' Anti-Crime Campaign,'' China Journal, July 
2000.
    \23\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Interim Assessment--China, 
19 January 07.
    \24\ Ibid.
    \25\ Ibid.
    \26\ U.S. Department of State, Trafficking in Persons Report--
China, 80; ``Social Service Organizations Involved in Two Child 
Trafficking Cases,'' CECC China Human Rights and Rule of Law Update, 
11. See also, CECC, 2006 Annual Report, 20 September 06, 100.
    \27\ Murray Scot Tanner and Eric Green, ``Principals and Secret 
Agents: Central versus Local Control over Policing and Obstacles to 
`Rule of Law' in China,'' 191 China Quarterly 644, 666 (2007).
    \28\ Ibid.
    \29\ U.S. Department of State, Trafficking in Persons Report--
China, 80; ``Vietnamese Police Arrests Three for Trafficking of 
Children to China,'' Agence France-Presse, 17 July 07 (Open Source 
Center, 17 July 07); ``China, US agree To Enhance Coop on Global 
Issues,'' Xinhua (Online), 10 August 06.
    \30\ ``ILO, China Join To Combat Trafficking in Children and 
Women,'' Xinhua, reprinted in China.org (Online), 12 July 03; 
International Organization for Migration (Online), ``China Profile,'' 
July 2007; U.S. Department of State, Trafficking in Persons Interim 
Assessment--China.
    \31\ U.S. Department of State, Trafficking in Persons Interim 
Assessment--China; U.S. Department of State, Trafficking in Persons 
Report--China, 81.
    \32\ ``Panel Set To Target Human Trafficking,'' China Daily. See 
also, ``Ministry of Public Security Strengthens the Combating of Crimes 
of Trafficking in Women and Children,'' Xinhua.

    Notes to Section II--North Korean Refugees
    \1\ CECC Staff Interviews; Joel Charney, ``Acts of Betrayal: The 
Challenge of Protecting North Koreans in China,'' Refugees 
International, 12 May 05.
    \2\ International Crisis Group, Perilous Journey, Asia Report No. 
122, 26 October 2006, 1.
    \3\ Department of State, 2007 Trafficking in Persons Report.
    \4\ Bureau of Democracy, Human Rights and Labor, U.S. Department of 
State, Country Reports on Human Rights Practices--2006, China (includes 
Tibet, Hong Kong, and Macau), 6 March 6, 07.
    \5\ Kim Young Jin, ``Chinese Security Officer in Yenji Testifies, 
`Increase in Arrests at the End of the Year,''' Daily NK, 1 February 1, 
05.
    \6\ Kim Young Jin, ``China Arrests, Shortly Repatriated to North 
Korea,'' Daily NK, 26 June 07; Donna M. Hughes, ``How Can I Be Sold 
Like This?: The Trafficking of North Korean Women Refugees,'' National 
Review (Online), 19 July 05; International Crisis Group, ``Perilous 
Journeys: The Plight of North Koreans in China and Beyond,'' Asia 
Report No. 122--26 October 06, 6; Ronald Schaefer, ``The Forgotten 
Refugees,'' OhmyNews Web site, 9 October 06.
    \7\ Humanitarian workers assisting refugees have reported that many 
North Korean refugees attempt to reach Mongolia, and as a result China 
is constructing six new prisons in this region. See Charlotte Eager, 
``Korea's Oskar Schindler,'' Daily Mail, 30 June 07. On the 
construction of new facilities on China's North Korean border, see 
Melanie Kirkpatrick, ``Let Them Go: China Should Open its Border to 
North Korean Refugees,'' Wall Street Journal (Online), 15 October 06.
    \8\ Convention Relating to the Status of Refugees, 28 July 51, 
United Nations Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429 (V) of 14 December 50, art. 33; China acceded to the 
Convention on September 24, 1982. ``MFA Spokesman Calls North Korean in 
China `Illegal Migrants' and `Not Refugees','' CECC Virtual Academy 
(Online), 3 October 06.
    \9\ ``Foreign Ministry Spokesman Qin Gang's Regular Press 
Conference on 19 June, 2007,'' PRC Ministry of Foreign Affairs Web 
site, 20 June 07.
    \10\ ``Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Area,'' 12 August 1986, 
reprinted on the Rescue the North Korean People Urgent Action Network 
(RENK) Web site. According to James Seymour, RENK obtained and 
translated the document in December 2002. Seymour writes that ``this 
document cannot be authenticated, but it does not seem implausible.'' 
On the 1998 agreement, see also Cho Kye-ch'ang, ``Adds Article on 
Reinforcing Protection of a Special Train with Kim Jung-il on; Scope of 
Illegal Border-Crossing Expanded; Joint Countermeasures Included to 
Prepare Against Armed North Korean Escapees,'' Yonhap (Online), 22 
January 07.
    \11\ James D. Seymour, ``China: Background Paper on the Situation 
of North Koreans in China,'' Writenet, January 2005, 4-6.
    \12\ When China acceded to the Refugee Convention in 1982, it 
committed to honoring all provisions under the Convention and made only 
two reservations, neither of which is related to Article 33 on 
refoulement. Under Articles 26 and 42(2) of the Vienna Convention on 
the Law of Treaties, China's separate bilateral agreement with North 
Korea would not exempt it from compliance with its treaty obligations.
    \13\ Convention Relating to the Status of Refugees, art. 1.
    \14\ The United Nations Special Rapporteur on Human Rights in North 
Korea, ``Question of the Violation of Human Rights and Fundamental 
Freedom in any Part of the World: Situation of Human Rights in the 
Democratic People's Republic of Korea,'' 10 January 05, 13.
    \15\ ``Government Allows North Korean Refugees to Travel Directly 
to the United States,'' CECC Virtual Academy 28 August 06.
    \16\ Human Rights Watch, ``North Korea: Harsher Policies Against 
Border-Crossers,'' March 2007, 7-8; Another source dates this tougher 
policy from 2005. Kwon Jeong Hyun, ``10 Years of Defector Succession'' 
Daily NK, 16 May 07.
    \17\ Human Rights Watch, 4-9.
    \18\ Norma Kang Muico, ``An Absence of Choice: The Sexual 
Exploitation of North Korean Women in China,'' Anti-Slavery 
International, 2005.
    \19\ International Crisis Group, 18, citing David Hawk, ``The 
Hidden Gulag: Exposing North Korea's Prison Camps,'' U.S. Committee for 
Human Rights in Korea, October 2003; Kim Rahn, ``Female Inmates in 
North Face Compulsory Abortion,'' Korea Times, 29 September 06; Michael 
Sheridan, ``On the Death or Freedom Trail with Kim's Starving 
Fugitives,'' Times Online (London), 3 December 06. Kwon Jeong Hyun, 
``10 Years of Defector Succession,'' Daily NK, 16 May 07.
    \20\ Stephen Haggard and Marcus Noland, ``The North Korean Refugee 
Crisis: Human Rights and International Response,'' U.S. Committee for 
Human Rights in North Korea, 2006, 37-40.
    \21\ Haggard and Noland, 38-39.
    \22\ Haggard and Noland, 38; Convention Relating to the Status of 
Refugees, art. 35.
    \23\ Nicholas D. Kristof, ``Escape from North Korea,'' New York 
Times (Online), 4 June 07; ``China Imprisons N. Korean Defector Ring,'' 
Chosun Daily (Online) 28 May 07.
    \24\ ``NK Refugee Supporter Released in China,'' Daily NK, 29 
November 06.
    \25\ The State Council included the regulation on its 2006 
Legislative Plan, and a January 2006 State Council General Office 
circular on the State Council's legislative work plan for the year 
listed the Ministry of Foreign Affairs, the Ministry of Public 
Security, and the Ministry of Civil Affairs as drafting Temporary 
Regulations on the Administration of Refugees. ``Refugees Nearing Dream 
of Citizenship,'' People's Daily (Online), 1 June 07.
    \26\ ``Refugees Nearing Dream of Citizenship'' People's Daily.
    \27\ ``Statement of the Media by United Nations High Commissioner 
for Refugees Antonio Guterres, on Conclusion of his Mission to the 
People's Republic of China,'' United Nations High Commissioner for 
Refugees, 23 March 06.

    Notes to Section II--Freedom of Residence and Travel
    \1\ For a fieldwork-based case study that discusses the impact of 
the hukou system, including provisions allowing family members of urban 
hukou holders to transfer their status, see Dorothy J. Solinger, ``The 
Sad Story of Zheng Erji Who Landed in the City Through the Favors 
Reform-Era Policies Bestowed But Rewrote the Rules While Suffering 
Wrongs, Once There,'' in Dorothy J. Solinger, ed., Narratives of the 
Chinese Economic Reforms (Lewiston, NY: The Edwin Mellen Press, 2005), 
113-127, esp. 121, 123, 125.
    \2\ See, e.g., Universal Declaration of Human Rights (UDHR), 
adopted and proclaimed by General Assembly resolution 217A (III) of 10 
December 48, art. 2, 13; International Covenant on Civil and Political 
Rights (ICCPR) , adopted by General Assembly resolution 2200A (XXI) of 
16 December 66, entry into force 23 March 76, art. 2(1), 12(1), 12(3), 
26; the International Covenant on Economic, Social, and Cultural Rights 
(ICESCR) adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 2(2). [See Section X, 
``Protection of Internationally Recognized Labor Rights,'' for more 
information on China's obligations to comply with internationally 
recognized labor rights, include provisions relevant to migrant 
workers' status.]
    \3\ China is a party to the ICESCR and a signatory to the ICCPR . 
The Chinese government has committed itself to ratifying, and thus 
bringing its laws into conformity with, the ICCPR and reaffirmed its 
commitment as recently as April 13, 2006, in its application for 
membership in the UN Human Rights Council. China's top leaders have 
previously stated on three separate occasions that they are preparing 
for ratification of the ICCPR, including in a September 6, 2005, 
statement by Politburo member and State Councilor Luo Gan at the 22nd 
World Congress on Law, in statements by Chinese Premier Wen Jiabao 
during his May 2005 Europe tour, and in a January 27, 2004, speech by 
Chinese President Hu Jintao before the French National Assembly. As a 
signatory to the ICCPR, China is required under Article 18 of the 
Vienna Convention on the Law of Treaties, to which it is a party, ``to 
refrain from acts which would defeat the object and purpose of a 
treaty'' it has signed. Vienna Convention on the Law of Treaties, 
enacted 23 May 69, entry into force 27 January 80, art. 18.
    \4\ UN Committee on Economic, Social and Cultural Rights (CESCR), 
``UN Committee on Economic, Social and Cultural Rights: Concluding 
observations: People's Republic of China (including Hong Kong and 
Macao)'' (Online via UNHCR Refword)13 May 2005. E/C.12/1/Add.107, 
para. 15. This committee is charged with monitoring states' compliance 
with the ICESCR.
    \5\ State Council Notice on Endorsing the Public Security Bureau's 
Opinions on Promoting Reform of the Management System for Residence 
Permits in Small Towns and Cities [Guowuyuan pizhuan gong'anbu guanyu 
tuijin xiaochengzhen huji guanli zhidu gaige yijian de tongzhi], issued 
30 March 01. Under these rules, migrants to small cities or towns may 
keep their land rights in their villages of origin. For more 
information on earlier reforms, see the CECC Topic Paper ``China's 
Household Registration System: Sustained Reform Needed To Protect 
China's Rural Migrants,'' October 2005.
    \6\ See the CECC 2003 Annual Report for more information. CECC, 
2003 Annual Report, 2 October 03, 52.
    \7\ Regulations on Legal Aid [Falu yuanzhu tiaoli], issued 21 July 
03.
    \8\ State Council Office Circular on Improving Work on Management 
and Services for Migrant Workers in Cities [Guowuyuan bangongting 
guanyu zuohao nongmin jincheng wugong jiuye guanli he fuwu gongzuo de 
tongzhi], issued 5 January 03.
    \9\ State Council Circular Transmitting the Opinion of the 
Education and Other Ministries Relating to Further Work on Migrant 
Children's Compulsory Education [Guowuyuan bangongting zhuanfa jiaoyubu 
deng bumen guanyu jin yibu zuohao jincheng wugong jiuye nongmin zinu 
yiwu jiaoyu gongzuo yijian de tongzhi], issued 17 September 03.
    \10\ State Council Office Circular Regarding Work on Improving the 
Employment Situation for Migrants in Urban Areas [Guowuyuan bangongting 
guanyu jin yibu zuo hao gaishan nongmin jincheng jiuye huanjing gongzuo 
de tongzhi], issued 27 December 04.
    \11\ ``Labor Ministry Officials Remove Regulatory Barrier to 
Migrants Seeking Work in Cities,'' CECC Virtual Academy, 4 October 06.
    \12\ Central Party Committee, State Council Opinion on Promoting 
the Construction of a New Socialist Countryside [Zhong-gong zhongyang 
guowuyuan guanyu tuijin shehuizhuyi xin nongcun jianshe de ruogan 
yijian], issued 31 December 05. See also ``Communist Party, State 
Council Set Rural Reform Goals for 2006,'' CECC China Human Rights and 
Rule of Law Update, April 2006, 8.
    \13\ State Council Opinion on Resolving Migrant Worker Problems 
[Guowuyuan guanyu jiejue nongmingong wenti de ruogan yijian], issued 27 
March 2006.
    \14\ PRC Compulsory Education Law, adopted 12 April 86, revised 29 
June 06, art. 12; ``Amended Compulsory Education Law Would Assure 
Migrant Children the Right To Attend School'' [``Yiwu jiaoyufa'' 
xiuding cao'an baozhang liudong renkou zinu shangxue], CCTV (Online), 1 
May 06.
    \15\ Resolution Concerning the Question of Delegate Quotas and 
Elections for the 11th Session of the National People's Congress'' 
[Guanyu shiyi jie quanguo renda daibiao ming'e he xuanju wenti de 
jueding], Guangdong News (Online), 16 March 07. ``NPC's Approval of Key 
Laws Seen as Promotion of Social Justice by Chinese Academics,'' Xinhua 
News reprinted by BBC (Online), 16 March 07. Whether the resolution 
will give migrant workers a greater voice in practice remains unclear. 
In an article from the Xinhua news agency, one migrant worker expressed 
concern over election logistics since most migrant workers lack urban 
residence registrations, making them ineligible to vote in the cities 
where they reside. ``Rural Migrant Workers To Enter China's Top 
Legislature,'' Xinhua (Online), 8 March 2007. In January 2006, the 
Shanghai local people's congress (LPC) for the first time allowed two 
migrant workers from Jiangsu province to attend a session of the 
Shanghai LPC as observers. The China Economic Times, a State Council-
sponsored publication, criticized the Shanghai LPC, however, for not 
allowing the two migrants to serve as full representatives. It noted 
that hukou restrictions bar many migrants from standing for election, 
and that none of the 1,000 LPC delegates attending the session 
represented Shanghai's 4 million migrant workers. ``State Council 
Newspaper Criticizes Lack of Migrant Representation in Shanghai LPC,'' 
CECC China Human Rights and Rule of Law Newsletter, March 2006, 13-14.
    \16\ ``Hukou Reform Submitted To State Council, Legal and Fixed 
Place of Residence as Criteria for Shifting Hukou Registration'' [Huji 
gaige wenjian bao guowuyuan, hefa guding zhusuo cheng qianyi tiaojian], 
Guangdong News (Online), 23 May 97. ``Many Difficulties Remain in Hukou 
Reform, MPS Launches Investigation and Research into Legislating a 
Hukou Law [Huji gaige cun zhuduo nandian gong'anbu qidong hukoufa lifa 
diaoyan],'' Legal Daily (Online), 20 June 07. There has been some 
dispute over the document's submission to the State Council. For 
background see Carl Minzner, ``Hukou Reforms Under Consideration,'' 
Chinese Law and Politics Blog, 4 June 07.
    \17\ The current reforms bear close resemblance to earlier 
proposals put forth by central government officials. Nevertheless, one 
scholar has suggested that the current reforms are more liberal than 
past efforts in that they only demand citizens meet a residence 
requirement, rather than both residence and income requirements, for 
transferring hukou. See Carl Minzner, ``Hukou Reforms Under 
Consideration,'' Chinese Law and Politics Blog, 4 June 07.
    \18\ See Max Tunon, ``Internal Labour Migration in China: Features 
and Response,'' International Labour Organization (Online), April 2006, 
10, 22-23, 35.
    \19\ For more information on local regulations that condition hukou 
transfers on meeting such criteria, see ``China's Household 
Registration System: Sustained Reform Needed To Protect China's Rural 
Migrants,'' 4-5.
    \20\ Only certain types of rental housing qualify. The reforms 
permit other groups of migrants to obtain an urban hukou based on 
economic and educational criteria similarly used in other localities to 
restrict the number of migrants eligible to change their hukou status. 
Chengdu Municipal Party Committee, Chengdu City People's Government 
Opinion Concerning Deepening Residence Registration Reform and 
Reforming and Deepening the Integration of Cities and Towns (Trial) 
[Zhong-gong chengdu shiwei chengdushi renmin zhengfu guanyu shenhua 
huji zhidu gaige gaishen shenru tuijin cheng xiang yitihua de yijian 
(shixing)], issued 20 October 06, art. 2.
    \21\ ``Shenzhen Municipal Authorities Announce Tighter Controls 
Over Migrant Population,'' CECC China Human Rights and Rule of Law 
Update, September 2005, 9-10.
    \22\ ``Shenyang City Government Revokes Reforms to Temporary 
Residence Permit System,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 9-10.
    \23\ ``Beijing Eliminates Regulations on the Management of 
Migrants'' [Beijing feizhi wailai renyuan guanli tiaoli], Beijing News 
(Online), 26 March 05.
    \24\ ``Farmers Who Enter Cities and See a Doctor Can Be 
Reimbursed'' [Nongmin jincheng kanbing ke xiangshou baoxiao], Beijing 
News (Online), 23 August 05.
    \25\ Ma Lie, ``Xi'an District Grants Migrant Farmers Equal 
Treatment,'' China Daily (Online), 1 September 06 (Open Source Center, 
1 September 06).
    \26\ ``Chongqing High People's Court Issues Provisions, Traffic 
Accident Compensation To Be Carried Out According to `Same Life, Same 
Value' [Principle]'' [Chongqing gao yuan chutai guiding, chehuo 
peichang jiang zhixing ``tongming tongjia''], Xinhua (Online), 19 
October 06. A Chongqing court enforced this principle in December 2006 
when it ordered that the parents of a child killed in a traffic 
accident be compensated at the rate for urban hukou holders, despite 
the fact that they were migrant workers with non-Chongqing hukou 
status. ```Same Life, Same Value' Ruling in Chongqing's First Urban-
Rural Resident Car Accident Compensation Case'' [Chongqing shouli 
chengxiang jumin chehuo peichang an `tongming tongjia' panjue], Xinhua 
(Online), 13 December 06. For more information on compensation levels, 
see the CECC 2006 Annual Report, 20 September 06, 117, and ``Lawyer 
Petitions for Constitutional Review of Discriminatory SPC 
Interpretation,'' CECC China Human Rights and Rule of Law Update, June 
2006, 8-9.
    \27\ ``Supreme People's Court To Release Determination on Issue of 
`Same Life, Different Value' [Zui gao fayuan ni chutai xiangguan 
jueding jiejue ``tongming bu tongjia'' wenti], Xinhua (Online), 14 
March 07. In 2003, the SPC issued a judicial interpretation mandating a 
lower rate of compensation for rural hukou holders. ``Supreme People's 
Court's Judicial Interpretation Regarding Compensation Cases for 
Personal Injuries (2003)'' [Zui gao renmin fayuan guanyu shenli renshen 
sunhai peichang anjian shiyong falu ruogan wenti de jieshi], Supreme 
People's Court (Online), 4 December 03, art. 29.
    \28\ State Council Office Circular on Improving Work on Management 
and Services for Migrant Workers in Cities [Guowuyuan bangongting 
guanyu zuohao nongmin jincheng wugong jiuye guanli he fuwu gongzuo de 
tongzhi], issued 5 January 03.
    \29\ ``Number of Temporary Residents Nationwide is 86,730,000, 
Floating Population Needs Establishment of Socialization Management 
Model'' [Quanguo dengji zanzhu renkou 8673 wan ren, liudong renkou ying 
jianli shehuihua guanli moshi], Legal Daily (Online), 26 October 05.
    \30\ Henan Provincial Party Committee and Government Circular on 
``A Program for the Construction of a Peaceful Henan'' [Henan sheng wei 
sheng zhengfu guanyu ``ping'an henan jianshe gangyao'' de tongzhi], PRC 
Central Government (Online), 26 April 06.
    \31\  ICCPR, art. 12. General Comment 27 to this article states, 
``The refusal by a State to issue a passport or prolong its validity 
for a national residing abroad may deprive this person of the right to 
leave the country of residence and to travel elsewhere.'' Human Rights 
Committee, General Comment 27, Freedom of Movement (Art.12), U.N. Doc 
CCPR/C/21/Rev.1/Add.9 (1999), para. 9.
    \32\ PRC Law on Passports, adopted 29 April 06, art. 13(7). For an 
example of a beneficial provision within the law, see, e.g., Article 6, 
which stipulates time limits for officials to approve applications and 
allows applicants to contest rejected applications.
    \33\ Scholars and NGO staff have debated the legal bases 
surrounding the government's recent actions toward Yang. ``Welcome 
Return for Chinese Dissident, Others Not Free To Travel,'' Dui Hua 
(Online), 27 August 07; Donald C. Clarke, ``Yang Jianli and China's 
Passport Law,'' Chinese Law Prof Blog (Online), 28 August 07.
    \34\ ``Yang Jianli's Application for Passport To Go to U.S. Still 
Has Not Been Approved'' [Yang Jianli shenqing huzhao lijing fu mei reng 
wei bei pizhun], Radio Free Asia (Online), 15 June 07.
    \35\ See the CECC Political Prisoner Database for more information 
on Yang's case. Although initially charged with illegal entry, he was 
later charged with espionage for alleged connections with Taiwan.
    \36\ ``Attorney Tang Jingling Brings Administrative Suit Against 
Customs for Taking His Passport and Preventing Him from Leaving the 
Country'' [Tang Jingling lushi dui haiguan kouliu huzhao zuzhi ta 
chuguo tiqi xingzheng susong], Chinese Human Rights Defenders (Online), 
6 December 06.
    \37\ Claudia Blume, ``International PEN Concerned About Writers' 
Freedom of Expression in China,'' Voice of America (Online), 6 February 
07.
    \38\ Anita Chang, ``China Bars Dissident's Wife From Leaving,'' 
Associated Press (Online), 11 June 07. ``Zeng Jinyan and Yao Lifa 
Prevented from Leaving Country To Attend Human Rights Conference in 
Geneva'' [Zeng Jinyan Yao Lifa bei jinzhi chujing dao Rineiwa chuxi 
guoji renquan huiyi], Radio Free Asia (Online), 11 June 07.
    \39\ ``Mongolian Dissident's Passport Application Denied for 
`Possible Harm to State Security and National Interests,''' Southern 
Mongolian Human Rights Information Center (Online), 8 August 07.
    \40\ ``Persecution of Zheng Enchong Must Stop: HRIC,'' Human Rights 
in China (Online), 22 August 07.
    \41\ Maureen Fan, ``Wife of Chinese Activist Detained at Beijing 
Airport, Authorities Forcibly Return Her to Home Village,'' Washington 
Post (Online), 25 August 07.
    \42\ ``CAA Urges Chinese Government To Release Rights Lawyer Gao 
Zhisheng and his Family Members,'' China Aid Association (Online), 27 
September 07. For more information on Gao, see the CECC Political 
Prisoner Database.
    \43\ ``China Confiscates Muslims' Passports,'' Radio Free Asia 
(Online), 28 June 07. See also ``Activist: Members of Muslim Minority 
Group in China Forced To Surrender Their Passports,'' Associated Press, 
reprinted in International Herald Tribune, 20 July 07.
    \44\ Yang Yingchun, ``Ismail Tiliwaldi, While Speaking at an 
Autonomous Region-Wide Religion Work Meeting, Calls for Stronger 
Management Over Pilgrimage and the `Two Religions' To Safeguard the 
Masses' Interest,'' Xinjiang Daily, 11 July 09 (Open Source Center, 13 
July 07).
    \45\ ``China Sentences Underground Pastor to 7.5 Years in Prison,'' 
Agence France Presse (Online), 8 July 06, reprinted on the China Aid 
Association Web site. See the CECC Political Prisoner Database for more 
information.
    \46\ ``Two Priests Detained in Wenzhou After Arrest on Return from 
Europe,'' Union of Catholic Asian News (UCAN), 3 October 06; 
``Underground' Chinese Catholic Priests Charged, Likely To Face 
Trial,'' UCAN (Online), 26 October 06. ``Two Underground Priests From 
Wenzhou Soon To Be Freed,'' AsiaNews, 17 May 07; ``Two Underground 
Priests, Arrested After Pilgrimage, Sentenced Six Months After 
Arrest,'' UCAN (Online), 16 May 07. Authorities released Shao from 
prison in May to obtain medical treatment. ``Jailed Wenzhou Priest 
Released Provisionally For Medical Treatment,'' UCAN, 30 May 07. 
Authorities released Jiang in August. ``Second Of Two Jailed Wenzhou 
Priests Released, Diagnosed With Heart Conditions,'' UCAN, 29 August 
07. See the CECC Political Prisoner Database for more information. 
Jiang Surang is also known by the name Jiang Sunian.
    \47\ Timothy Chow, ``Chinese House Church Historian Denied ID 
Card,'' Compass Direct News (Online), 17 February 06, reprinted on the 
China Aid Association Web site.

                                 <all>

</pre></body></html>
